APPENDIX TABLE OF CONTENTS
Order of the Supreme Court of the
State of Kansas (December 19, 2019) ................ 1a
Mandate of the Kansas Court of Appeals
(December 26, 2019) ........................................... 2a
Opinion of the Kansas Court of Appeals
(May 17, 2019) .................................................... 4a
Decision of the District Court of
McPherson County Kansas (June 1, 2018) ..... 55a
Decision of the District Court
of McPherson County Kansas
(July 10, 2017) .................................................. 87a
Journal Entry Concerning Parties’ Motions for
Summary Judgment, District Court of
McPherson County, Kansas
(October 12, 2016) ............................................ 93a
Decision on Parties’ Motions for Summary Judgment, District Court of McPherson County,
Kansas (September 19, 2016) ........................ 105a
Decision of the Surface Transportation Board
(March 28, 1997) ............................................. 116a

App.1a
ORDER OF THE SUPREME COURT
OF THE STATE OF KANSAS
(DECEMBER 19, 2019)
IN THE SUPREME COURT OF THE
STATE OF KANSAS
________________________
Before: Marla LUCKERT, Chief Justice.
The court denies the petitions for review and notes
any responses and replies filed in the following cases.
[...]
No. 119,605

Central Kansas Conservancy, Inc. v.
Clinton L. Sides and Kimbra D. Sides
[...]

Dated this 19th day of December 2019.
FOR THE COURT
/s/ Marla Luckert
MARLA LUCKERT, Chief Justice

App.2a
MANDATE OF THE
KANSAS COURT OF APPEALS
(DECEMBER 26, 2019)
COURT OF APPEALS
STATE OF KANSAS
________________________
Case No. 2015-CV-000067
Appellate Court No. 18-119605-A
District Court Case No. 2015-CV-000067
THE STATE

KANSAS, TO THE DISTRICT COURT
WITHIN AND FOR THE COUNTY OF MCPHERSON IN
THE STATE OF KANSAS, GREETING:
OF

WHEREAS, In a certain civil action lately pending
before you, wherein CENTRAL KANSAS CONSERVANCY, INC., appellee, and, CLINTON L. SIDES AND
KIMBRA D. SIDES, appellants, a judgment was
rendered by you against the appellant from which
judgment appellant prosecuted an appeal in the Court
of Appeals within and for the State of Kansas;
AND WHEREAS, on May 17, 2019, on consideration of the appeal, it was ordered and adjudged by the
Court of Appeals that the judgment of the district court
be affirmed in part, reversed in part, and remanded
with directions.
AND WHEREAS, on December 19, 2019, the
Supreme Court denied the petition for review. Judgment of the district court is affirmed in part, reversed
in part, and remanded with directions upon the denial. An attested true copy of the opinion is attached.

App.3a
YOU ARE THEREFORE COMMANDED, that
without delay you cause execution to be had of the
judgment of the Court of Appeals, according to law.
Costs
Paid fees of Clerk of the Appellate Courts … $155.00
WITNESS my hand and the seal of the Court of
Appeals affixed hereto, at my office, in the city of
Topeka, On Dec 26, 2019.
/s/ Douglas T. Shima
Clerk of Appellate Courts
MANDATE RECEIVED BY CLERK
TRIAL JUDGE NOTIFIED
Date: 1-2-2020

App.4a
OPINION OF THE KANSAS COURT OF APPEALS
(MAY 17, 2019)
IN THE COURT OF APPEALS OF
THE STATE OF KANSAS
________________________
CENTRAL KANSAS CONSERVANCY, INC.,

Appellee,
v.
CLINTON L. SIDES and KIMBRA D. SIDES,

Appellants.

________________________
No. 119,605

Appeal from McPherson District Court;
Marilyn M. Wilder, Judge.
Opinion filed May 17, 2019.
Before: GREEN, P.J., SCHROEDER, J.,
and STUTZMAN, S.J.
GREEN, J.:
This case involves a .75-mile stretch of railroad
corridor which runs on Clinton L. Sides and Kimbra
D. Sides’ property in McPherson County, Kansas. The
railroad corridor at issue, along with the railroad
corridor running north and south of it, have been
converted to a trail use easement under the National
Trails System Act (Trails Act), 16 U.S.C. § 1247(d)
(2012). The Central Kansas Conservancy, Inc. (Conser-

App.5a
vancy) owns the trail use easement. As a result of this
easement, it intends to develop the railroad corridor
into a public trail named the “Meadowlark Trail.”
Below, the Sides unsuccessfully challenged the
Conservancy’s ownership of the trail use easement.
The Sides now appeal the trial court’s rulings against
them, arguing that the trial court’s decision to grant
the Conservancy’s request for quiet title was erroneous
for two reasons. First, they argue that they obtained
rights over the railroad corridor to the exclusion
of the Conservancy through adverse possession or
prescriptive easement. Second, they argue that the
Conservancy’s right to develop the trail no longer
exists because the Conservancy violated K.S.A. 583213(c) of the Kansas Recreational Trails Act (KRTA).
Finally, the Sides argue that the trial court’s decision
to grant the Conservancy’s injunction, which contained
rulings about fencing, was erroneous because it contravened the plain language of K.S.A. 58-3212(a)(10).
We determine the Sides’ arguments—that they
obtained rights over the railroad corridor through
either adverse possession or prescriptive easement and
that the Conservancy’s lack of compliance with K.S.A.
58-3213(c) caused it to lose the right to develop the
trail—are unpersuasive. Nevertheless, we determine
the Sides’ arguments about fencing have merit. In
short, we conclude that the Conservancy owns the trail
use easement and has the right to develop the rail
corridor into a trail. But under the facts of this case,
we conclude that the trial court did not follow the plain
language of K.S.A. 5 8-3212(a)(10) when it made its
fence rulings. As a result, we affirm in part, reverse
in part, and remand with directions consistent with
this opinion.

App.6a
On April 16, 1997, in accordance with the Trails
Act, Union Pacific and the Conservancy entered into
a line donation contract, where Union Pacific gave the
Conservancy a “Donative Quitclaim Deed” to its easement rights over 12.6 miles of railroad corridor in
McPherson County. As a result, absent future railbanking, the Conservancy obtained the exclusive right
to develop the railroad corridor for recreational trail
use. About .75 miles of this railroad ran through the
Sides’ land; the railroad corridor was about 66 feet
wide.
On September 10, 2015, the Conservancy petitioned the McPherson County District Court for quiet
title and an injunction concerning its trail use easement
on the Sides’ land.
In its petition, the Conservancy alleged that after
it obtained the trail use easement, the Sides “actively
and unlawfully interfered with [its] lawful attempts
. . . to exercise [its] rights to use and further develop,
and to perform its duties with respect to the use and
further development of, the Corridor as a recreational
trail.” Additionally, the Conservancy asserted that the
Sides had blocked its access to the railroad corridor
with fencing and “machinery and equipment,” with
no intention of stopping.
The Sides responded, agreeing that they had
blocked the railroad corridor with fencing. They also
agreed that they had placed equipment and machinery
in the railroad corridor that prevented the Conservancy
from entering it. But the Sides asserted that their
interference with the Conservancy’s right to enter the
railroad corridor constituted adverse possession of the
Conservancy’s ownership of the corridor. Alternatively,
they argued that they had obtained a prescriptive

App.7a
easement over the railroad corridor. Moreover, the
Sides asserted that the Conservancy’s “opportunity
to develop and use the railroad right of way for a
recreational trail had to be exercised, if at all, within
two years of the expiration of the appeal period. . . . ”
The Sides believed that the Conservancy violated
K.S.A. 58-3213(c) of the KRTA’s two-year period to
develop a trail. As a result, the Sides requested that
the trial court not only deny the Conservancy’s petition
but also grant their counterclaims for quiet title,
declaratory judgment, and injunction.
The trial court held a case management conference
on March 21, 2016. After this conference, the parties
filed multiple competing summary judgment motions.
Those competing motions can be summarized as
follows:
The Sides argued that they were entitled to
summary judgment against the Conservancy, and in
favor of their counterclaims, for the same reasons they
listed in their response—they adversely possessed the
railroad corridor, they obtained a prescriptive easement
over the railroad corridor, and the Conservancy violated K.S.A. 58-3213(c).
For their adverse possession and prescriptive easement arguments, the Sides stressed that in addition to
the fencing, machinery, and equipment, since the mid1990s they had farmed, grazed cattle, and hunted on
the railroad corridor. Then, the Sides cited federal law
holding that recreational trail use does not fall within
the original scope of a railroad easement. Thus, the
Sides asserted the trail use easement constituted a new
easement that they could obtain rights over by adverse
possession or prescriptive easement.

App.8a
For their argument that the Conservancy violated
K.S.A. 58-3213(c)’s two-year time limit, the Sides
alleged that these facts were uncontroverted: (1) that
the Conservancy had begun planning the construction
of the trail on October 14, 1997; (2) that the Conservancy had not physically developed the trail within two
years “following the time to appeal from the [Conservancy’s] acquisition of the right to develop [the] recreational trail”; (3) that the Conservancy first contacted
them about physically developing the trail on the
railroad corridor running through their land in August
2013; and (4) that the Conservancy had still not
physically developed the trail on the railroad corridor
running through their land.
Last, under K.S.A. 58-3212(a)(9) of the KRTA, the
Sides argued that they had “crossing and use rights
[over the railroad corridor] even if the [Conservancy
was] otherwise empowered to construct a trail and
[they had] neither adverse possession nor a prescriptive
easement.”
In its motion, the Conservancy argued that the
trial court should grant summary judgment in its favor
on the issues of quiet title and injunction because
the uncontroverted facts established that it had an
easement over the railroad corridor. The Conservancy
also argued that the Sides’ arguments were flawed
based on the following: (1) because the “public use”
exception under K.S.A. 60-509 prevented the Sides from
acquiring additional rights over the railroad corridor
through adverse possession or prescriptive easement;
(2) because K.S.A. 58-3213(c)’s two-year time limit did
not apply given the plain language of K.S.A. 58-3213
(d) and the facts of the case; and (3) because the
Sides sought a remedy that was unavailable under the

App.9a
KRTA given the plain language of K.S.A. 2016 Supp.
58-3215.
As for K.S.A. 58-3213(c)’s two-year time limit, the
Conservancy pointed out that the Interstate Commerce
Commission (ICC) served its first Notice of Interim
Trail Use (NITU) on September 28, 1995, when Union
Pacific and the City of Lindsborg, Kansas, entered
into negotiations. Meanwhile, K.S.A. 58-3213 went into
effect on July 1, 1996. Thus, the Conservancy argued
that it was exempt from complying with K.S.A. 58-3213
(c) because the ICC approved NITU negotiations before
the KRTA went into effect. See K.S.A. 58-3213(d).
On October 12, 2016, the trial court denied the
Sides’ motion for summary judgment. It granted the
Conservancy’s motion in part. In its order, the trial
court made the following factual findings:
“[1]. The Union Pacific Railroad acquired a railroad
right of way over the Subject Property in
the late 1800s. The parties do not agree as
to whether the right of way was acquired by
condemnation or purchase but have not
made the manner of acquisition an issue in
their motion for summary judgment.
“[2]. On June 5, 1995, Union Pacific sought an
exemption from the [ICC] to abandon 12.6
miles of rail line between milepost 518.0 and
530.6 near Lindsborg, all in McPherson
County. A portion of that rail line traverses
the Subject Property. Union Pacific certified at
that time that no local traffic had moved [on]
the line for at least two years. (The [ICC’s]
functions has been transferred to the successor body, the [STB].)

App.10a
“[3]. The railroad right-of-way/trail corridor is 66
feet in width and runs generally north and
south.
“[4]. On August 18, 1995, the City of Lindsborg,
Kansas requested that a [NITU] be issued
for the subject rail line under the National
Trails System Act, 16 U.S.C. 1247(d).
“[5]. On September 20, 1995, the [ICC] issued a
Decision and Notice of Interim Trail Use or
Abandonment allowing for negotiation of an
interim trail use/rail banking agreement.
“[6]. On March 25, 1997, the STB issued a Decision
that recited various extensions of the trail
use condition and the various parties that
participated in obtaining those extensions,
ultimately ending with the Plaintiff, Central
Kansas Conservancy, Inc., and granted
Plaintiffs request to extend the interim trail
use negotiation period to April 20, 1997, thereby allowing Plaintiff to continue to negotiate
a trail use/rail banking agreement with UP.
“[7]. On April 16, 1997, Plaintiff reached an agreement with Union Pacific for use of rightsof-way, including the right-of-way over the
Subject Property, for trail purposes. This
agreement was embodied in a Line Donation
Contract meeting the conditions of 16 U.S.C.
§ 1247(d). The Line Donation Contract provided in part ‘In the event reactivation of rail
service upon the Property is necessary, Donee
agrees to transfer the Property back to UP
by executing a quit claim deed in recordable
form.’

App.11a
“[8]. On April 16, 1997, Union Pacific Railroad provided Plaintiff with a Donative Quit Claim
Deed to, inter alia, the right-of-way over the
Subject Property, subject to the April 16, 1997
Line Donation Contract and the terms and
conditions of the ICC Decision and Notice of
Interim Trail Use in Docket AB-33. On May
30, 1997, Union Pacific Railroad provided
Plaintiff with a Correction Donative Quit
Claim Deed to, inter alia, the right-of-way
over the Subject Property, subject to the
April 16, 1997 Line Donation Contract and
the terms and conditions of the ICC Decision
and Notice of Interim Trail Use in Docket
AB-33.
“[9]. The Defendants obtained a portion of the
Subject Property by warranty deed dated
December 17, 1994 and leased the grass portion adjoining the then unused railroad rightof-way running through that quarter section.
At that time there was no current railroadrelated activity evident on the right of way.
(No written lease was provided to the Court
so the Court makes no determination regarding the validity or terms of that lease.)
“[10]. Defendants acquired additional property
adjoining on both sides the right-of-way by
warranty deed dated December 17, 1997, and
on August 24, 2000 acquired additional property also subject to the right-of-way.
“[11]. By warranty deed dated July 2, 2001,
Defendants acquired the remainder of the
property in the southeast quarter of Section
29, Township 18 South, Range 3 West of the

App.12a
Sixth P.M. that they had not acquired in the
previous transactions.
“[12]. Since the mid-1990s, access to the Subject
Property from Pawnee Road on the south,
and from the north, has been fenced off by
[the Sides]. In addition, [the Sides] erected
‘no trespassing’ signs on the fence blocking
access to the Subject Property and have
parked farm equipment on the Subject Property to further block access from Pawnee Road.
“[13]. The [KRTA], K.S.A. 58-3211 et seq. was
passed into law by the Kansas legislature
and was effective as of July 1, 1996.”
Based on the preceding facts, the trial court
rejected each of the Sides’ arguments. First, the trial
court rejected the Sides’ arguments that they could
obtain rights over the railroad corridor to the exclusion
of the Conservancy through adverse possession or
prescriptive easement. The trial court held that under
K.S.A. 60-509, Kansas law prevented the taking of
lands held for public use. The trial court ruled that
railbanking easements and trail use easements constituted easements for public use based on the United
States Supreme Court decision in Preseault v. I.C.C.,
494 U.S. 1, 19, 110 S. Ct. 914, 108 L. Ed. 2d 1 (1990).
Second, the trial court ruled that K.S.A. 58-3213 of
the KRTA, including K.S.A. 58-3213(c)’s two-year time
limit on trail development did not apply. The trial court
noted that K.S.A. 58-3213(d) stated that the section
applied only to “recreational trails for which approval
to enter into negotiations for interim trail use [was]
received from the appropriate federal agency on or
after the effective date of [the] act.” Yet, the ICC
approved the Union Pacific’s and Lindsborg’s negotia-

App.13a
tions for NITU on September 20, 1995, before K.S.A.
58-3213’s enactment on July 1, 1996.
Next, the trial court determined that the Sides’
argument about whether they had a right to use the
railroad corridor under K.S.A. 58-3212(a)(9) was not
properly before the court. The trial court found that
because the parties had not “elucidated the rights of
[the] landowners in respect to a trail easement,” the
court would not make “findings on that issue.” The
trial court would later speculate that “there would
seem to be no reason why the [Sides] couldn’t . . . [continue] to store machinery on the [railroad corridor]
until the time that [the Conservancy was] ready to
begin work on the [corridor].” Yet, the trial court barred
the Sides from excluding the Conservancy by posting
no trespassing signs, fencing, or in any other way, as
it started to develop the trail.
On July 10, 2017, upon the request of the parties,
the trial court clarified its summary judgment order.
The trial court stated that it denied the Sides’ motion
for summary judgment in all respects. Next, the trial
court stated that although it granted the Conservancy’s
summary judgment motion on quiet title, it denied
the Conservancy’s summary judgment motion on the
injunction.
After entering this order, the parties filed several motions debating whether the Sides had a right to
access the corridor. The Conservancy also alleged that
the Sides (1) were seeking to relitigate issues that
the trial court had already decided against them and
(2) were actively interfering with its construction of
the trail, enhancing its need for the injunction.

App.14a
On July 21, 2017, the Conservancy sent a letter
to the Sides’ counsel stating that it intended to
“work on the Trail” running through the Sides’ property sometime between July 26 and 29, 2017, and on
August 5, 2017. When Conservancy volunteers arrived
at the disputed corridor on July 26, 2017, they found
that the Sides had placed a new large piece of farm
equipment and a mobile home frame on the railroad
corridor. On August 5, 2017, Conservancy volunteers
were denied access to the railroad corridor. As a
result, the Conservancy moved for a “permanent prohibitory injunction and permanent mandatory injunction,”
arguing that the Sides’ actions prevented it from
developing the trail and violated the court’s previous
order.
The Sides responded that they had violated no
court order, because at that time, “[a]ll the Court ha[d]
done [was] issue non-final rulings on partial motions
for summary judgments, which [were], by their nature,
subject to revision until they [were] made final decisions.” The Sides argued that the Conservancy’s injunction requests were overly broad.
Next, the Sides retracted their request for a crossing easement under K.S.A. 58-3212(a)(9). The Sides
explained they were not requesting an easement under
K.S.A. 58-3212(a)(9) because they had not yet requested
the crossing easement from the Conservancy, which
they believed was a prerequisite for the easement.
Ultimately, the parties’ remaining arguments were
set for trial. Before trial, they submitted trial briefs.
The Conservancy stated that the theory of its case
was that it “should receive a permanent mandatory
and prohibitory injunction to enforce its rights to

App.15a
improve the Dispute[d] Corridor and to open it as a
recreational trail.” The Conservancy argued that the
trial court must answer these questions of fact at
trial: (1) whether the Sides interfered with the Conservancy’s ability to build a public recreation trail on the
rail corridor; and (2) whether the Sides would continue
to interfere with the Conservancy absent an injunction.
The Sides stated that the theory of its case was
that the Conservancy had “no right to develop or use
[their] property for a recreational trail and/or [was] not
entitled to injunctive relief for such purposes having
failed to commence or complete the development, and
having failed to bring an action seeking access to the
subject property, in a timely way.” The Sides alleged
that they had rights as the owners of the servient estate
to use the railroad corridor as long as they did not
unreasonably interfere with the Conservancy’s “actual
and appropriate use of . . .easement rights.” For this
reason, they argued that the Conservancy was not
entitled to an injunction or, alternatively, not entitled to
an injunction that would restrict their exercise of “legitimate . . . property rights.” The Sides also requested
that the trial court order an injunction preventing
the Conservancy from (1) entering the railroad corridor
and (2) “opening the trail” because the Conservancy
had not maintained fencing as required under K.S.A.
58-3212 of the KRTA. The Sides asked the trial court
to amend its pleadings consistent with its current
arguments.
Under the assumption the trial court granted the
Conservancy’s injunction, the Sides argued that “[a]ny
injunction must address fencing obligations. . . . ” This
included information about the location, construction,
and materials of the fence. The Sides argued that

App.16a
K.S.A. 58-3212(a)(10) of the KRTA mandated that the
Conservancy “erect fencing at its cost on both sides of its
trail.” Moreover, the Sides argued that the Conservancy must locate the fence in a way that preserved
their access to “use a significant portion of the 66foot right-of-way width for grazing, hunting, raising
crops or other reasonable uses” because “(1) the KRTA
does not require fencing of the boundaries of the
railroad right-of-way . . . [and] (2) the [Conservancy]
does not plan to build a trail 66-feet wide.”
The parties’ bench trial took place over 4 days in
January, February, and May 2018. Over the course
of those 4 days, 12 people testified.
Regarding fencing, Clinton Sides testified that
when he and Kimbra bought the land encompassing
the railroad corridor in 1997, “[t]here [were] old remnants of . . . fencing along the railroad right-of-way that
would not keep anything in and it was [in a state of]
disrepair and not used.” Clinton asserted that on the
right-of-way, you may “find a post here and there,”
and you may “find five-barb wires that are in disarray
and on the ground in places, but there [was] not a
fence that [would] hold livestock in.” Clinton explained
that he let his cattle graze on the railroad corridor.
Thus, he admitted that he benefitted from the Conservancy not being on the railroad corridor. But he testified
that if the court allowed the Conservancy to develop
the trail, he “expect[ed] a fence to be put on [the] easement to keep [his] cattle off [of] it.”
Moreover, Clinton testified that he had a barbed
wire fence around the entirety of his property, which
he had reinforced with an electric fence. He also
explained that he placed a barbed wire and electric
fence across the easement in 2000 when he started

App.17a
noticing people walking down the easement. Clinton
claimed that he placed this fence on the easement
before the Conservancy posted no trespassing signs.
Clinton admitted that he did not take this fence down
for Conservancy volunteers to work on the trail.
Instead, those volunteers had to use a ladder to crawl
over the fence when they worked on the trail on July
26, 2017. Clinton asserted that on August 5, 2017, “law
enforcement” would not let Conservancy volunteers
on “[his] property.” He admitted that he told Michele
Cullen, the Conservancy’s president, that he was “not
going to allow her on [his] personal property to destroy
trees and grass that day.” The trees and grass Clinton
referred to were within the railroad corridor.
Cullen explained that most other landowners next
to the Meadowlark Trail were “growing crops and they
actually go right up to the right-of-way on either side
and don’t own property on both sides and they do
encroach on our right of way.” She testified that the
Sides were the only landowners who had requested
fencing given that most landowners were encroaching
the Conservancy’s right-of-way. But she explained that
if the Sides wanted a fence, or if the Conservancy had
to fence given the Sides’ cattle, the Conservancy would
construct a fence.
Cullen testified that the Conservancy “could not
make plans as to what [it was] going to do for fencing
until [it] had a meeting with [Clinton] and decided
between [Clinton] and [the Conservancy] what was
needed.” When questioned whether the Conservancy
ever maintained the existing fencing on the railroad
corridor, Cullen testified that the Conservancy had
not maintained such fencing. Cullen also testified,
however, that the Sides never asked the Conservancy

App.18a
to maintain any existing fencing. Furthermore, Cullen
testified that Clinton told her the Conservancy could
not do any work on the railroad corridor “[w]ithout a
court order.”
Cullen explained the Conservancy’s plans for the
Meadowlark Trail. At first, the Conservancy intended
to make the trail a category 1 or 2 trail. This meant
that the trail would be a single lane that extended
the “whole width of the flat part of the railroad bed.”
But eventually, the Conservancy wanted to enhance
the trail by adding more benches and a horse path
next to the trail. Cullen testified that if a fence was
built, the Conservancy would construct it on the edges
of the right-of-way because that was what the Conservancy was “entitled to.” Additionally, she testified
that so far, no landowner had requested a crossing
easement under the KRTA.
David McMannis, a fence contractor who testified on the Sides’ behalf, testified about providing the
Sides with a fencing estimate. McMannis testified that
he generally constructs barbed wire fences. McMannis
stated that the Sides requested an estimate for “a
five-wire barbed wire fence with a post approximately every 10 feet,” with three gates. He explained
that at one point Clinton asked him, “Can you fence
this and not get on [my] property?” According to Mc
Mannis, he did not have the equipment or manpower
to construct the fence from the railroad corridor alone.
McMannis also explained that the railroad corridor
was too steep, and he needed a flat working area.
McMannis asserted that to construct the fence from
inside the railroad corridor alone would require him
to work by hand, which would cost more money.

App.19a
In the end, the trial court rejected the Sides’
argument that the Conservancy was barred from
using its easement. It noted that it had already ruled
on this issue in its summary judgment order. It then
explained:
“The relief granted under KRTA is for the
Court to order compliance. See, K.S.A. 583215. [The Sides] could have filed a counterclaim in this litigation to more fully litigate
their allegations of [the Conservancy’s] failure to comply with KRTA; however, Mr. Sides
testified he does not want a court order for
[the Conservancy] to comply with KRTA,
the remedy provided by KRTA.”
As for the Conservancy’s compliance with the KRTA,
the trial court found that “under a strict reading of
[K.S.A. 58-3212(a)(10)], [the Conservancy] ha[d] not
maintained any existing fence since it received its
easements in 1997 nor has it installed any fencing
along the right-of-way.” Yet, it also found that “there
was no evidence that any landowner ever made a
serious request for fencing that had been ignored by
[the Conservancy].” The trial court noted that Clinton
“testified repeatedly that he [did not] want [the
Conservancy] on ‘his’ property and that he ‘owned’
the right of way or that he ‘had the deed’ to the right
of way.” Based on the preceding, the trial court held:
“[I]f no landowner is requesting maintenance
or installation of fencing or will allow [the
Conservancy] on the property to maintain or
install fencing, it is hard to see how [the
Conservancy] is failing in its duty. Put
another way, if no landowner seems to want
fencing along the right of way or is willing

App.20a
to pay half the cost of such fencing, how is it
a breach of duty for Plaintiff not to provide
fencing?”
Next, the trial court made findings and rulings
about the opposition the Conservancy faced in constructing the trail, the Conservancy’s ability to construct the trail, and fencing:
“28. Evidence at trial showed plainly and quite
clearly that [the Conservancy] has faced opposition at the local level and in various legal
proceedings throughout the 21 years it has
held the right of way. Landowners have
removed signs posted; erected barbed wire
fences across the trail on both developed and
undeveloped portions of the trail; made complaints to the McPherson Board of County
Commissioners, successfully urging them
to complain to the [STB]; some landowners
involved themselves at the Kansas Board of
Tax Appeals; and two separate actions were
filed with the [STB] seeking revocation of
the right-of-way agreement. A Request to Reopen one of those proceedings was also filed
by landowners. The landowners, specifically
including [the Sides] in this case, simultaneously now complain of lack of action and
complained and interfered in the past when
[the Conservancy] attempted to fulfill its
statutory obligations, including weed control
and others. Given the amount and types of
opposition, it is no wonder that [the Conservancy] has clearly had difficulty meeting the
letter of the law in [the] KRTA. That is not
equivalent, however, to finding that [the

App.21a
Conservancy] has failed to follow the KRTA
nor that [the Conservancy] has used the right
of way in a manner that presents a public
nuisance.
[...]
“34. The evidence is that the trail across the [the
Sides’] property would be developed similarly
to the other phases of the developed trail.
Although the actual trail would only be
eight to ten feet in width, there is nothing
in the law that limits [the Conservancy] to use
of only that much of the right-of-way. Kansas
case law does allow a servient land owner to
make use of a railroad right-of-way in any
way that is not inconsistent with the railroad’s use; however, [the Sides] have declined
to name any specific use they would make of
the right-of-way not ‘needed’ by [the Conservancy]. By way of example, all parties seem
to agree that cattle should not be near the
walking path or people so it would not be
appropriate to allow [the Sides] to pasture
cattle right up to the edge of a walking trail
eight to ten feet in width. Similarly, there is
no evidence that there is tillable ground
near the right of way so [the Sides] can’t claim
a need or desire to farm that particular
ground. Because [the Sides] fail to identify
any specific use they wish to make of the
right-of-way that [is] under the control of [the
Conservancy], there is no need to limit [the
Conservancy’s] use of the right-of-way which
it has been granted through the [STB]. The
Court cannot find, based upon the evidence

App.22a
at trial, that [the Sides] are entitled to any
use of the right-of-way.
[...]
“40. As stated previously, the evidence is clear that
[the Conservancy] has shown it is ready, willing and able to begin development of the trail
across [the Sides’] property and, additionally,
[the Conservancy] has shown an irreparable
injury. [The Conservancy] cannot proceed to
do the work it is legally entitled and required
to perform on the easement it has been
granted because [the Sides] are insistent,
wrongly, that they own the easement. They
have made known to [the Conservancy] that
[the Conservancy] is not to be on ‘their” property and have placed barriers to [the Conservancy] doing its work. [The Conservancy] has
shown that it has the capacity to develop an
additional .75 miles of trail but is prevented
from doing so by the actions of [the Sides].
[The Sides] even alluded to continuing their
opposition to any work on the trail while
the matter is appealed. These facts scream
for an injunction against [the Sides].
“41. The Court agrees with [the Sides] that public
interest is served by requiring [the Conservancy’s] compliance with the KRTA; however,
[the Sides] have stated they actually do not
want the [the Conservancy] to comply with
the KRTA and specifically did not file an
action to that end because the stated remedy
in such an action is a compliance order. [The
Conservancy’s] requested injunction against
the [the Sides] will actually allow the [the

App.23a
Conservancy] to comply with the KRTA as
it relates to the easement over [the Sides’]
land, free of interference by [the Sides].
[...]
“44. The KRTA does not require [the Conservancy]
to bear the full cost of fencing along the right
of way. KRTA requires [the Conservancy] to
pay one-half of the cost of fencing. There were
no arguments or evidence presented to the
Court that any other fencing statutes apply
to this case. If [the Sides] request fencing from
[the Conservancy], [the Sides] are obligated
under the KRTA to pay one-half-of the cost
of that fencing.”
As a result, the trial court granted the Conservancy’s request for an injunction. The trial court held
that the evidence established the Sides “[would] not
allow [the Conservancy] to enter the right-of-way upon
which [the Conservancy was] entitled to develop a
trail without a court order.” The trial court found that
the Sides violated its summary judgment orders when
they prevented the Conservancy from working on the
trail in July and August 2017. And the Sides’ decision
to violate its order supported the injunction ruling.
Then, the trial court ordered the following as part
of the injunction:
“As a further condition of this injunction,
[the Conservancy] is ordered to contact [the
Sides] within thirty (30) days of the date of
this ruling to discuss an appropriate barbed
wire fence along both sides of the right-of-way
to keep cattle from escaping from [the Sides’]
property. If [the Sides] require a survey to

App.24a
determine the placement of the fence, that
survey shall be paid for by [the Sides]. [The
Sides] shall further be required to pay their
one-half of the cost of fencing prior to the
beginning of the construction of the fence
and the fence builder or appropriate volunteer
fence builders shall be allowed reasonable
access to [the Sides’] property as necessary
to install the appropriate fence. If [the Sides]
so request, they shall be allowed one crossing
with appropriate gates. Construction of the
fence shall commence within thirty (30) days
of any survey required by [the Sides]. [The
Conservancy] is not required to hire a professional fence builder unless it so chooses.”

Does This Court Have Jurisdiction?
After both the Sides and the Conservancy had
already filed their briefs in this case, the Conservancy
moved this court to dismiss for lack of jurisdiction
the Sides’ claims on adverse possession, prescriptive
easement, and K.S.A. 58-3213(c)’s two-year period to
develop a trail. Thus, the Conservancy argued that
this court had jurisdiction over only the Sides’ fencingrelated arguments. The Conservancy argues that this
court lacks jurisdiction because “when the district
court refused in its July 2017 ‘Decision’ to foreclose a
possible future grant of injunctive relief to [the Conservancy], that refusal did not prevent the July 2017
Decision from being final for appeal purposes.” Because
the Conservancy believes the trial court’s summary
judgment ruling was final as to the quiet title rulings
in July 2017, the Conservancy argues that the Sides’
June 11, 2018 notice of appeal was untimely.

App.25a
This court exercises unlimited review when considering whether jurisdiction exists. In re Care & Treatment of Emerson, 306 Kan. 30, 34, 392 P.3d 82 (2017).
The Conservancy relies on this court’s holding in
Thompson-Hayward Chem. Co. v. Cyprus Mines Corp.,
8 Kan. App. 2d 487, Syl., ¶ 5, 660 P.2d 973 (1983), to
support its proposition. In Thompson, this court held:
“An action to enjoin the breach of a contract is not
based upon the same cause of action as a subsequent
action for damages resulting from the breach and is
thus not a res judicata bar to the subsequent action.”
Although not relevant to the remainder of this appeal,
the Conservancy emphasizes that it initially requested
damages against the Sides but it withdrew its damages
request after the trial court granted its quiet title
request.
Unlike in Thompson, however, the Conservancy
brought its claims of quiet title, injunction, and damages in the same petition. As a result, this case involves
one cause of action, not a first cause of action and
later cause of action. Above all, regardless of the fact
the Conservancy voluntarily withdrew its request for
damages, the trial court did not grant the Conservancy’s request for summary judgment on its injunction
claim in July 2017. The trial court decided the injunction issue following the bench trial. It is a well-known
rule that “[a] partial summary judgment one that
disposes of fewer than all of the claims or issues
between the parties-is not a final judgment.” Vallejo
v. BNSF Railway Company, 46 Kan. App. 2d 498, 503,
263 P.3d 208 (2011).
We note, however, on August 2, 2017, that the
Sides moved the trial court to determine its summary
judgment rulings as final under K.S.A. 2016 Supp.

App.26a
60-254(b). Yet, nothing in the record on appeal, including the appearance docket, indicates that the trial court
ever ruled on this motion. Furthermore, in its motion,
the Conservancy never asserts that the trial court
granted the Sides’ K.S.A. 2016 Supp. 60-254(b) ruling,
rendering the trial court’s summary judgment rulings
final and immediately appealable. During oral argument in this matter, the parties agreed that the trial
court never granted the Sides’ K.S.A. 2016 Supp. 60254(b) motion.
As a result, the Sides did not need to appeal
within 30 days of July 10, 2017, because the July 10,
2017 summary judgment order was not final. Instead,
the Sides needed to appeal within 30 days of June 1,
2018 the date the trial court granted the Conservancy’s
injunction. Because the Sides appealed on June 11,
2018-10 days after the trial court’s June 1, 2018
order granting the injunction the Sides’ appeal was
timely.
Thus, this court has jurisdiction over this appeal.

Did the Trial Court Err by Ruling That the Sides
Could Not Obtain Possession of the Railroad Corridor
by Adverse Possession or Prescriptive Easement?
The Sides argue that the trial court erred when it
ruled that they had not gained exclusive rights over
the railroad corridor either through adverse possession
or prescriptive easement. The Sides contend that the
trial court’s finding that the Conservancy’s easement
constituted an easement for public use under K.S.A.
60-509 wrongly ignored that the Conservancy’s trail
use easement was distinct from Union Pacific’s original railroad use easement.

App.27a
In making their argument, the Sides cite federal
caselaw supporting that the original railroad purpose
easement and the recreational trail use easement are
two distinct easements because those easements exist
for different purposes. See Anna F. Nordhus Family
Tr. v. United States, 98 Fed. Cl. 331, 338 (2011) (holding
that under Kansas law, the use of a recreational trail
on an interim basis on a railroad’s former corridor
constitutes no permissible railroad purpose, resulting
in the creation of a new easement); see also Toews v.
United States, 376 F.3d 1371, 1381 (Fed. Cir. 2004).
The Sides emphasize that they seek to obtain rights
over this new easement, not the railroad easement,
by adverse possession or prescriptive easement.
The Sides also allege that the Conservancy’s easement does not exist for public use. The Sides point
out that the Conservancy is a private entity. They
further point out that the Conservancy placed a no
trespassing sign on the trail during the construction
phase. According to the Sides, the preceding facts,
coupled with their actions of openly using the railroad
corridor since the mid-1990s, establish that the trial
court erred when it denied their summary judgment
motion.
The Conservancy responds that the trial court
correctly determined that its recreational trail use
easement over the railroad corridor exists for public
use. The Conservancy alleges that the facts the Sides
emphasize, like it being a private entity, are immaterial
under K.S.A. 60-509.

Standard of Review
Summary judgment is appropriate when the
pleadings, depositions, answers to interrogatories, and

App.28a
admissions on file, together with the affidavits, establish that no genuine issue of material facts exists and
a moving party is entitled to judgment as a matter of
law. Patterson v. Cowley County, Kansas, 307 Kan.
616, 621, 413 P.3d 432 (2018). When ruling on a summary judgment motion, the trial court must resolve
all factual inferences in favor of the nonmoving party.
307 Kan. at 621. Summary judgment must be denied
if reasonable minds could differ about the conclusions drawn from the evidence. 307 Kan. at 621.
The trial court denied the Sides’ adverse possession
and prescriptive easement arguments based solely on
its construction and application of K.S.A. 60-509.
Appellate courts exercise de novo review over the
granting or denial of summary judgment motions when
no facts are disputed. Martin v. Naik, 297 Kan. 241,
246, 300 P.3d 625 (2013).

Trail for Public Use
K.S.A. 60-503—the statute on adverse possession
—states:
“No action shall be maintained against any
person for the recovery of real property who
has been in open, exclusive and continuous
possession of such real property, either
under a claim knowingly adverse or under a
belief of ownership, for a period of fifteen
(15) years. This section shall not apply to
any action commenced within one (1) year
after the effective date of this act.”
Kansas courts also “use the K.S.A. 60-503 elements
for adverse possession in evaluating whether a pre-

App.29a
scriptive easement exists.” Brady Fluid Svc., Inc. v.
Jordan, 25 Kan. App. 2d 788, 794, 972 P.2d 787 (1998).
Nevertheless, K.S.A. 60-509 states that certain
real property actions cannot be adversely possessed
or obtained by prescriptive easement: “Nothing contained in any statutes of limitations shall be applicable
to any real property given, granted, sequestered or
appropriated to any public use, or to any lands
belonging to this state.” (Emphasis added.) Previously,
this court has explained that real property for “public
use” must be “owned or put to use by the public, or
for the establishment of interests in such property.”
City of Attica v. Mull Drilling Co., 9 Kan. App. 2d 325,
329-30, 676 P.2d 769 (1984). The Attica court
explained: “To allow K.S.A. 60-509 to apply to all
actions which in any manner concern publicly-owned
or publicly-used property, no matter how nebulous,
indirect or tangential the connection might be, would
be extending the scope of that statute too far.” 9 Kan.
App. 2d at 329-30.
16 U.S.C. § 1247(d)—the Trails Act—states:
“The Secretary of Transportation, the Chairman of the Surface Transportation Board, and
the Secretary of the Interior, in administering the Railroad Revitalization and Regulatory Reform Act of 1976, shall encourage State
and local agencies and private interests to
establish appropriate trails using the provisions of such programs. Consistent with the
purposes of that Act, and in furtherance of the
national policy to preserve established railroad rights-of-way for future reactivation of
rail service, to protect rail transportation
corridors, and to encourage energy efficient

App.30a
transportation use, in the case of interim
use of any established railroad rights-of-way
pursuant to donation, transfer, lease, sale, or
otherwise in a manner consistent with this
chapter, if such interim use is subject to restoration or reconstruction for railroad purposes,
such interim use shall not be treated, for
purposes of any law or rule of law, as an
abandonment of the use of such rights-of-way
for railroad purposes. If a State, political
subdivision, or qualified private organization is prepared to assume full responsibility for management of such rights-of-way
and for any legal liability arising out of such
transfer or use, and for the payment of any
and all taxes that may be levied or assessed
against such rights-of-way, then the Board
shall impose such terms and conditions as a
requirement of any transfer or conveyance for
interim use in a manner consistent with this
chapter, and shall not permit abandonment
or discontinuance inconsistent or disruptive
of such use.”
Additionally, when Congress enacted the Trails
Act, it included a statement of policy and declaration
of purpose:
“In order to provide for the ever-increasing
outdoor recreation needs of an expanding
population and in order to promote the preservation of, public access to, travel within,
and enjoyment and appreciation of the openair, outdoor areas and historic resources of
the Nation, trails should be established (i)
primarily, near the urban areas of the Nation,

App.31a
and (ii) secondarily, within scenic areas and
along historic travel routes of the Nation,
which are often more remotely located.”
(Emphases added.) 16 U.S.C. § 1241(a) (2012).
Thus, rails-to-trails legislation exists for two
reasons. First, it exists to prevent the abandonment
of railroad corridors. Second, Congress’ policy statement establishes that it also exists to create trails
that the public may enjoy. Congress passed the
Trails Act to promote trail development to which the
“public [had] access” and could meet their “recreation
needs.”
In Preseault, the United States Supreme Court
explained how Congress’ stated purposes in the Trails
Act established that trail use easements existed for
public use. The Preseault Court explained:
“Congress intended to ‘encourage the development of additional trails’ and to ‘assist
recreation[al] users by providing opportunities
for trail use on an interim basis.’ H.R. Rep.,
9; S. Rep., at 9, 10 (same), U.S. Code Cong.
& Admin. News 1983, p. 119; see also 16
U.S.C. § 1241(a) (Trails Act ‘promote[s] the
preservation of, public access to, travel within,
and enjoyment and appreciation of the openair, outdoor areas and historic resources of
the Nation’). Second, Congress intended ‘to
preserve established railroad rights-of-way for
future reactivation of rail service, to protect
rail transportation corridors, and to encourage energy efficient transportation use.’ H.R.
Rep., at 8; S. Rep., U.S. Code Cong. & Admin.
News 1983, p. 119; see also 16 U.S.C. § 1247
(d).” 494 U.S. at 17-18.

App.32a
Yet, the Sides complain that the Conservancy’s
easement for recreational trail use under the Trails
Act is not for “public use” as meant under K.S.A. 60509. In short, this argument is flawed given the purpose of the Trails Act. In their brief, the Sides mainly
argue about how the Conservancy’s trail use easement
is distinct from any railroad easement. This argument
has an unappealing technicality. For example, what
matters is whether the Conservancy’s distinct trail
use easement is for public use. The only arguments
the Sides make about why the trail use easement is
not for public use is (1) that the Conservancy is a
private entity and (2) that the Conservancy put no
trespassing signs on the trail during the construction
phase.
Nevertheless, 16 U.S.C. § 1247(d) explicitly states
that a “qualified private organization” may serve as
the party responsible for the trail. Moreover, under
K.S.A. 58-3212(a)(3), the Conservancy had a duty to
“provide for trail-user education and signs regarding
trespassing laws and safety along the recreational
trail.” Because the trail was not yet developed, it seems
the Conservancy was merely complying with its duty
under K.S.A. 58-3212(a)(3) when it installed the no
trespassing signs. Indeed, the Conservancy’s no trespassing signs seem particularly necessary given the
Sides’ decision to hunt, trap, and run cattle along the
trail use easement.
In addition, we are guided in this inquiry by a
decision of the Maryland Court of Appeals. It considered
and rejected this same argument made by the Sides
in Montgomery Cty. v. Bhatt, 446 Md. 79, 99, 130 A.3d
424 (2016). Most significantly, in Bhatt, a landowner
argued that he had obtained rights over the former

App.33a
railroad corridor by adverse possession. The court
explained that Maryland law prevented adverse possession of lands held for public use. 446 Md. at 91. It then
rejected the landowner’s argument because “it [was]
apparent that the succeeding interim use as a hiker/
biker trail [was] within the accepted definition of
‘public use’. . . . ” 446 Md. at 99.
In summary, the Conservancy’s trail use easement
is an easement for public use. Indeed, the record
establishes that some parts of the Meadowlark Trail
are currently open for public use. As for the parts of
the trail not yet open to the public, it is readily
apparent that the Conservancy intends to open the
trail for public use. As explained in Attica, real property held for “public use” can be property that is
“owned or put to use by the public, or for the establishment of interests in such property.” (Emphasis
added.) 9 Kan. App. 2d at 329-30. Congress established that trails, and thus the easements necessary
to create those trails, exist for public use in its Trail
Act statement of purpose. Thus, K.S.A. 60-509 precludes
the Sides from obtaining rights over the Conservancy’s
trail use easement either by adverse possession or
prescriptive easement.
Last, we are guided in this inquiry by the
Surface Transportation Board’s (STB) decision in Ao
and Zhou, No. FD 35539, 2012 WL 2047726 (June 6,
2012). The STB determined that landowners could not
use Washington’s adverse possession laws to obtain
rights over a rail banked corridor on their land because
invocation of the adverse possession laws would unreasonably interfere with railroad transportation, even if
the railroad corridor was not currently being used for
transportation. In reaching this decision, the STB noted

App.34a
that the party who maintained the railroad corridor
under the Trails Act would not be able to maintain
the corridor if the landowners adversely possessed it.
The STB further noted the inability to conduct railrelated construction in case of reactivation. As a
result, the STB held that the landowners’ adverse
possession claim was preempted by 49 U.S.C. § 1050l
(b)—the statute giving the STB authority to regulate
rail carrier transportation. 2012 WL 2047726, at *6-8.
Therefore, the trial court correctly denied the Sides’
motion for summary judgment while granting the
Conservancy’s motion for summary judgment.

Did the Trial Court Err by Ruling that K.S.A. 583213(c)’s Two-Year Time Limit to Develop a Trail
Did Not Apply in This Case?
The Sides argue that the trial court erred when
it ruled that the Conservancy did not have to comply
with K.S.A. 58-3213’s two-year time limit to develop
the trail. The Sides assert that the trial court misinterpreted K.S.A. 58-3213 when making its ruling. Then,
the Sides argue that the Conservancy’s failure to
develop the trail within two years resulted in the
Conservancy losing its ability to develop the trail.
The Sides contend that the Conservancy’s “opportunity to develop a recreational trail has expired,
[meaning] nothing precludes [them] from continuing
or undertaking activities that would interfere with
the development of such a trail on the unused railroad
right-of-way . . . ”
The Conservancy responds that the Sides’ argument fails for several reasons. First, the Conservancy
argues that the trial court correctly determined that
K.S.A. 58-3213(c) did not apply given that the ICC

App.35a
approved the Union Pacific’s and Lindsborg’s request
to enter negotiations for NITU before the Legislature
enacted the KRTA. Second, the Conservancy argues
that even if K.S.A. 58-3213(c)’s two-year time limit
applied, the remedy the Sides request is unavailable
under the KRTA. Instead, the Sides’ remedy would
allow them to bring an action to enforce the KRTA as
stated under K.S.A. 2018 Supp. 58-3215. Third,
assuming arguendo that this court rejects its previous
arguments, the Conservancy argues that K.S.A. 583213(c)’s two-year time limit violates 16 U.S.C. 1247(d)
because 16 U.S.C. 1247(d) includes no time limits
under which a trail sponsor must develop the trail.
In other words, the Conservancy argues that federal
law would preempt the application of K.S.A. 58-3213
(c)’s two-year time to develop the trail.

Standard of Review
Here, the parties’ dispute does not involve facts.
Instead, their dispute turns on interpreting the KRTA
and the Trails Act. An appellate court exercises de
novo review over the granting or denying of a summary judgment order when the parties do not dispute
the facts. Martin, 297 Kan. at 246. Moreover, to the
extent the parties’ arguments involve interpretation
of a statute, interpretation of a statute is a question
of law over which an appellate court exercises de
novo review. Neighbor v. Westar Energy, Inc., 301 Kan.
916, 918, 349 P.3d 469 (2015).

K.S.A. 58-3213 Inapplicable
The Sides’ entire argument hinges on the trial
court misinterpreting the plain language of K.S.A.
58-3213(c) and (d). Those provisions state:

App.36a
“(c). The responsible party shall complete
development of a recreational trail within a
period of time equal to two years times the
number of counties in which the recreational
trail is located. Such period of time shall
begin only when the appeal period pursuant
to subsection (d) of 16 U.S.C. § 1247 (1983)
has expired. Any time during which there is
pending any court action challenging the
development or use of the trail shall not be
computed as part of the time limitation
imposed by this subsection.
“(d). The provisions of this section shall
apply to only recreational trails for which
approval to enter into negotiations for interim
trail use is received from the appropriate
federal agency on or after the effective date
of this act.”
The KRTA went into effect on July 1, 1996, when
it was published in the statute book. See L. 1996, ch.
252, § 1.
Here, on September 28, 1995, the ICC served its
“Decision and Notice of Interim Trail Use or Abandonment.” In that decision, the ICC explained how on
August 18, 1995, after Union Pacific applied for
abandonment, Lindsborg requested a NITU. Then,
the ICC explained that Lindsborg had thus far met the
requirements to enter into negotiations with Union
Pacific for interim trail use, and the Union Pacific
was willing to negotiate. As a result, the ICC concluded
that a “NITU [would] be issued under 49 CFR 1152.29.
The parties [could] negotiate an agreement during
the 180-day period. . . . ” (Emphasis added.)

App.37a
On March 25, 1997, the STB issued a notice
entitled “Union Pacific Railroad Company—Abandonment Exemption—in McPherson County, KS.” In this
notice, the STB provided a procedural history of the
case. The STB recounted that on September 28, 1995,
the ICC served its Decision and Notice of Interim
Trail Use or Abandonment, resulting in a 180-day “trail
use/railbanking condition [being] imposed under the
[Trails Act], as requested by the City of Lindsborg.”
It then recounted how Lindsborg extended the trail
use condition to September 22, 1996, in a decision
served on March 26, 1996. Lindsborg extended its trail
use condition at the request of a few other interested
parties, including Friends of the Trail, who shortly
afterwards changed its name to Central Kansas
Conservancy.
At the end of this March 25, 1997 notice, the
STB extended the trail use negotiating period for 30
days and named the Conservancy as the authorized
party allowed to negotiate with Union Pacific. The STB
concluded: “The NITU served [on] September 28, 1995,
and extended by decisions served [on] March 26, 1996,
and January 31, 1997, is modified to reflect that [the
Conservancy] is authorized to negotiate a trail use/rail
banking agreement with [Union Pacific].”
When denying the Sides’ summary judgment
motion, the trial court ruled that K.S.A. 58-3213(c)’s
two-year time limit did not apply to the Conservancy
because the ICC authorized Lindsborg to enter into
negotiations for a NITU with Union Pacific on September 28, 1995, which was before July 1, 1996, the effective date of the KRTA. The Sides allege that the trial
court should have started counting for K.S.A. 58-3213
(c)’s two-year time limit purposes when the STB issued

App.38a
its March 25, 1997 decision. It seems the Sides believe
that the trial court should have relied on the March
25, 1997 date because this was when the STB authorized the Conservancy to negotiate for a NITU with
Union Pacific.
Nevertheless, under the plain language of K.S.A.
58-3213(d), the section applies only to “recreational
trails for which approval to enter into negotiations
for interim trail use [was] received from the appropriate federal agency on or after the effective date of
[the] act.” Subsection (d) contains no exception about
when a new party begins negotiating with the railroad
for interim trail use. All that matters under subsection
(d) is the date the federal agency approved interim
trail use negotiations.
Furthermore, the Legislature distinguishes K.S.A.
58-3213 from K.S.A. 58-3212—the provision that
involves duties of responsible parties. Subsection (d)
of K.S.A. 58-3212 reads as follows: “The provisions of
this section shall apply to all recreational trails,
regardless of when approval to enter into negotiations
for interim trail use is or was received from the
appropriate federal agency.” (Emphasis added.) The
Legislature’s decision to require “the provisions” of
K.S.A. 58-3212 to “apply to all recreational trails,” no
matter when the federal agency approved negotiations
for interim trail use, further undermines the Sides’
interpretation of K.S.A 58-3213. This is because by
enacting K.S.A. 58-3212(d), it is readily apparent
that the Legislature knew how to enact broad legislation that applied to all trails regardless of when the
federal agency approved interim trail use. Even so,
the Legislature explicitly rejected using this language when enacting K.S.A. 58-3213(d). Instead, the

App.39a
Legislature excused the application of K.S.A. 58-3213
(d) for recreational trails where the federal agency
approved entering negotiations for interim trail use
before the enactment of the KRTA.
Last, in their brief, the Sides emphasize that the
Conservancy was not the party approved to enter
negotiations for interim trail use with Union Pacific
on September 28, 1996. The Sides, however, ignore
that our Legislature determined that the date the
federal agency approved specific parties negotiating
for interim trail use was irrelevant for determining
whether K.S.A. 58-3213 applied. Instead, under the
plain language of K.S.A. 58-3213(d) it is the date that
the federal agency approved the recreational trail the
parties were negotiating about for interim trail use that
controls: “The provisions of this section shall apply to
only recreational trails for which approval to enter
into negotiations for interim trail use is received
from the appropriate federal agency on or after the
effective date of this act.” (Emphasis added.)
From the ICC’s September 28, 1995 notice to the
STB’s March 25, 1997 notice, Union Pacific’s, Lindsborg’s, and the Conservancy’s negotiations for interim
trail use all concerned the same 12.6 miles of railroad
corridor in McPherson County, which eventually
became part of the Meadowlark Trail. As a result, the
Sides’ argument that under the plain language of
K.S.A. 58-3213(d) “[a]ll that matters . . . is whether any
such approval was received on or after the effective
date” is incorrect. (Emphasis added.) In fact, the word
“any” does not even appear in K.S.A. 58-3213(d).
The most fundamental rule of statutory interpretation is that the intent of the Legislature, as established by the plain language of a statute, governs.

App.40a

Ullery v. Othick, 304 Kan. 405, 409, 372 P.3d 1135

(2016). Our goal is always to ascertain the Legislature’s
intent through the plain language of a statute, giving
ordinary words their ordinary meanings. 304 Kan. at
409. Thus, we must refrain from reading language
into a statute that does not otherwise exist in the
statute. 304 Kan. at 409.
Even so, in their brief, the Sides make policy
arguments why this court should not apply the plain
language of K.S.A. 58-3213(d). The Sides allege that
the Legislature intended to exempt parties “who had
gone so far in the process that they were at least to
the point of negotiating an agreement with a railroad
[when] the statute took effect” regardless of the plain
language. Yet, if a statute is plain and unambiguous,
we will not resort to the canons of statutory construction. 304 Kan. at 409. Thus, we need not consider
the Legislature’s policy reasons for enacting subsection
K.S.A. 58-3213(d).
Moreover, despite the Sides’ contention to the
contrary, it is readily apparent that the Conservancy
was involved in trail planning before the KRTA’s
enactment on July 1, 1996. This is evident because in
the STB’s March 25, 1997 decision, the STB noted
that in its March 26, 1996 decision, it had extended
Lindsborg’s trail use condition on behalf of Friends of
the Trail, who shortly afterwards became the Conservancy.
Simply put, the plain language of K.S.A. 583213(d) does not support the Sides’ interpretation. The
plain language of K.S.A. 58-3213(d) applies to only
“recreational trails” where “approval to enter into
negotiations for interim trail use [was] received from
the appropriate federal agency on or after the effec-

App.41a
tive date of this act.” The effective date of the KRTA
was July 1, 1996. Approval to enter into negotiations
for interim trail use occurred on September 28, 1995,
well before the KRTA went into effect. As a result,
K.S.A. 58-3213, as a section, does not apply to the
Conservancy. In tum, the trial court correctly ruled
that the Conservancy had no duty to comply with
K.S.A. 58-3213(c)’s two-year time limit to develop the
trail.

Sides’ Requested Relief Unavailable
Assuming arguendo that K.S.A. 58-3213(c)’s twoyear period to develop the trail applies to the Conservancy, the Conservancy’s argument that the Sides’
requested relief does not exist under the KRTA has
merit. In their brief, the Conservancy emphasizes that
K.S.A. 2018 Supp. 58-3215 is the only provision within
the KRTA that discusses a remedy. The remedy under
K.S.A. 2018 Supp. 58-3215 is enforcement of the
KRTA.
K.S.A. 2018 Supp. 58-3215 states:
“If the responsible party fails to comply with
the provisions of this act, any adjacent property owner, city or county aggrieved by the
noncompliance may bring an action in the
district court to enforce the provisions of this
act. Upon a finding that the responsible party
has failed to comply with the provisions of
this act, the court may enter an order requiring the responsible party to comply with the
provisions of this act.”
No provision under the KRTA provides that the responsible party either loses its right to develop the

App.42a
trail or loses its right to the trail use easement by
violating any provision of the KRTA.
In their reply brief, the Sides allege that the
Conservancy’s interpretation of the KRTA would have
required them to file a noncompliance claim against
the Conservancy before the Conservancy’s two-year
development period had expired. But the Conservancy
does not make this argument. Moreover, the Conservancy’s interpretation would not require the Sides to
move the court for compliance before K.S.A. 58-3213
(c)’s two-year period had expired. Clearly, a party
could not move for relief under K.S.A. 2018 Supp. 583215 arguing that “the responsible party fail[ed] to
comply with the provisions of [the] act,” unless the
responsible party had already violated that
provision. Thus, this argument is flawed.
The Sides also stress that the Legislature did not
enact the current version of K.S.A. 58-3215 until 2006
when the Legislature made an amendment to K.S.A.
58-3215. Between K.S.A. 58-3215’s enactment in 1996
and the 2006 amendment, K.S.A. 58-3215 read as
follows: “A city or county may institute procedures
for recourse against the responsible party pursuant
to 16 U.S.C. 1247 (1983) and 49 C.F.R. 1152.29 (1986)
upon the failure of the responsible party to comply
with the provisions of this act.” L. 1996, ch. 223, § 5.
16 U.S.C. § 1247 (1983) is substantively identical to
the current 16 U.S.C. § 1247. Moreover, 49 C.F.R.
§ 1152.29 (2019) is the STB regulation on “Prospective
use of rights-of-way for interim trail use and rail
banking.”
Thus, the Sides are correct that they could not
have personally used K.S.A. 58-3 215 to force the
Conservancy to comply with the KRTA until 2006.

App.43a
Yet, this does not change the fact that when the
Legislature enacted the KRTA in 1996, it included a
single remedy—having the city or county take recourse
against the noncomplying responsible party under
either 16 U.S.C. § 1247 (1983) or 49 C.F.R. § 1152.29
(1986). Under no circumstances, could an aggrieved
landowner stop the development of a trail or a trail
use easement under the previous version of K.S.A.
58-3215.
Furthermore, the Legislature’s amendment in
2006 suggests that the Legislature believed that the
predecessor version of K.S.A. 58-3215 was lacking
because the previous version did not provide adjacent
landowners the opportunity to sue as an aggrieved
party under the KRTA. Nevertheless, when the Legislature added language that adjacent landowners could
sue under the KRTA, the Legislature also added language in the amendment explicitly clarifying what was
the remedy for the responsible party’s failure to
comply with the KRTA. The stated remedy was an
order to comply with the KRTA.
As a result, only one remedy exists under the
KRTA—an order to enforce the Act as stated under
K.S.A. 2018 Supp. 58-3215. Thus, assuming that the
Sides established that the Conservancy had not developed the trail in the time limits required under K.S.A.
58-3213(c), they could sue for enforcement of the
KRTA under K.S.A. 2018 Supp. 58-3215. Even so, the
Sides’ actions desire to end any development of the
trail; they want the court to enter an order stating
that the Conservancy has no trail use easement.
Last, the Legislature’s inclusion of the single
enforcement remedy supports that the Legislature
does not allow any other remedies under the KRTA.

App.44a
If the Legislature intended for other remedies, like
termination of the responsible party’s right to develop
the trail or termination of the trail use easement, the
Legislature could have included that remedy under
the KRTA. Again, this court must refrain from reading
language into statutes that does not exist. Ullery, 304
Kan. at 409. To provide the remedy the Sides request,
we would have to read language into the KRTA that
does not exist.
Moreover, if we were to interpret the KRTA in a
way that allowed a Kansas court to terminate a trail
use easement issued by the federal government, we
would need to consider the Conservancy’s arguments
about federal preemption. “If a court can find any
reasonable way to construe a statute as constitutionally
valid, it must do so.” Solomon v. State, 303 Kan. 512,
523, 364 P.3d 536 (2015). Additionally, “[a]ppellate
courts generally avoid making unnecessary constitutional decisions. Thus, where there is a valid alternative
ground for relief, an appellate court need not reach a
constitutional challenge.” State ex rel. Schmidt v. City
of Wichita, 303 Kan. 650, Syl., ¶ 3, 367 P.3d 282 (2016).
Because K.S.A. 58-3213(c)’s two-year time limit
does not apply and because K.S.A. 2018 Supp. 58-3215
establishes that the Sides’ requested remedy is unavailable, we will not consider whether federal law
preempts the application of K.S.A. 58-3213(c)’s twoyear time limit to develop a trail. As a result, we
determine that the Sides’ argument fails.

Did the Trial Court Err When Ruling on Fencing?
The Sides argue that the trial court erred when
making its fencing rulings in three ways: First, the
Sides argue that the trial court erred by ordering

App.45a
them to pay one-half the costs to construct the fence.
Second, the Sides argue that the trial court erred by
ruling that the fence be constructed on the “sides of
the right-of-way.” Third, the Sides argue that the
trial court erred by ruling that the Conservancy could
enter its land outside the railroad corridor to construct
the fence. The Sides allege that each of the trial
court’s rulings are contrary to the plain language of
K.S.A. 58-3212(a)(10). For these reasons, the Sides ask
us to reverse and remand to the trial court, directing
that the trial court order that the Conservancy pay
for fencing, that the Conservancy place fencing nearer
to the trail, and that the Conservancy not enter their
property outside the railroad corridor while constructing the fence.
On the other hand, the Conservancy argues that
the plain language of K.S.A. 5 8-3212(a)(10) supports
the trial court’s fencing rulings. Moreover, the Conservancy argues that Kansas law, as well as the facts
here, establish the following: (1) that it has the right
to place fencing on the partition of the railroad corridor; and (2) that it has the right to enter the Sides’
property outside the railroad corridor while constructing the fence.
The trial court’s fencing rulings occurred within
its order granting the Conservancy’s injunction against
the Sides. An appellate court reviews the granting of
an injunction for an abuse of discretion. Downtown
Bar and Grill v. State, 294 Kan. 188, 191, 273 P.3d
709 (2012). A trial court abuses its discretion when
the trial court commits an error of law or an error of
fact or no reasonable person would agree with the
trial court’s decision. Wiles v. American Family Life
Assurance Co., 302 Kan. 66, 74, 350 P.3d 1071 (2015).

App.46a
When considering the trial court’s factual findings,
an appellate court must determine whether the factual
findings were supported by substantial competent
evidence that could support its legal conclusions. Brown
v. ConocoPhillips Pipeline Co., 47 Kan. App. 2d 26,
36, 271 P.3d 1269 (2011). The party challenging the
granting of an injunction has the burden to establish
that the trial court abused its discretion. Steffes v.
City of Lawrence, 284 Kan. 380, 393, 160 P.3d 843
(2007).
To the extent the Sides’ arguments involve interpreting statutes, interpretation of a statute is a question of law over which this court exercises de novo
review. Neighbor v. Westar Energy, Inc., 301 Kan. at
918.
K.S.A. 58-3212(a)(10) the provision in the KRTA
on fences-states that the responsible party shall:
“(A) maintain any existing fencing between
the trail and adjacent property; (B) maintain
any future fencing installed between the trail
and adjacent property; (C) install between
the trail and adjacent property fencing corresponding in class to that maintained on the
remaining sides of such adjacent property;
and (D) on request of an adjacent property
owner, pay one-half the cost of installing
fencing between the trail and such property
owner’s adjacent property with a fence of
the class requested by such property owner,
if not all remaining sides of such property
are fenced.”
Thus, upon obtaining a trail use easement under
the Trails Act, the responsible party has a statutory

App.47a
duty to maintain any existing fencing on the railroad
corridor. Further, the responsible party must maintain
any fencing later installed on the railroad corridor.
This is clear under the plain language of K.S.A. 583212(a)(10)(A) and (B). But subsection (A) does not
speak to the quality of the existing fencing.
Under subsection (C), the responsible party
must install fencing in the same “class” as the fencing
maintained “on the remaining sides of such adjacent
property.” By using the language “remaining sides of
such property,” the Legislature conveyed that subsection (C) applied to adjacent properties where fencing
existed on all sides but the trail. Hence, if the
landowner of the adjacent property had the remaining
sides of his or her property fenced, then the responsible party must fence the section along the railroad
corridor so it attaches with the landowner’s existing
fencing. Moreover, the responsible party must use
fencing that matches the landowner’s existing fencing.
As with subsection (A), subsection (C) does not speak
to the quality of the landowner’s existing fencing.
Meanwhile, subsection (D) applies when the landowner does not have all the remaining sides of the
adjacent property fenced. In such situations, the responsible party and landowner will split the cost of
placing fencing between the trail and the landowner’s
property on the landowner’s request. As a result, if
the landowner has no fencing in place, subsection (D)
would apply.
Turning to the facts, we know from the trial that
Clinton testified that he had a barbed wire fence and
electric fence around all of his property. Although
Clinton did not explicitly state that his fencing ran
along the sides of his property, Clinton’s testimony

App.48a
implies that his fencing runs along the sides of his
property.
The preceding facts call into question the trial
court’s ruling about fencing. To begin with, the trial
court ruled that the Sides had to pay for half the
fencing costs. Paying for half the fencing costs is
appropriate under K.S.A. 58-3212(a)(10)(D) only if
the sides of the adjacent landowner’s property are
not entirely fenced. But Clinton’s testimony supports
that the sides of the Sides’ property are entirely
fenced. Indeed, this was the only evidence before the
court. Given Clinton’s testimony, substantial competent evidence does not support the trial court’s implied
finding that less than all of the Sides’ property was
fenced. In tum, the trial court erred when it ruled
that the Sides had to pay half the cost of fencing as
stated under K.S.A. 58-3212(a)(10)(D).
Instead, absent evidence the Sides’ property is
not entirely fenced, the Conservancy must “install
between the trail and adjacent property fencing corresponding in class to that maintained on the remaining
sides of such adjacent property” as stated under
K.S.A. 58-3212(a)(10)(C). This means that the Conservancy must install barbed wire and electric fencing
along the railroad corridor. Thus, we reverse the trial
court and remand with directions on this issue.
As for the existing fence along the railroad
corridor, Clinton testified that this barbed wire fence
was much deteriorated. He explained that his cattle
walked right over the fencing. The Sides introduced
photos of the barbed wire fencing on the railroad
corridor into evidence. Those photos might have (1)
established the existing fencing’s condition and (2)
established the existing fencing’s location. Neverthe-

App.49a
less, the Sides have not included those photos in the
record on appeal.
Below, the Sides emphasized that the Conservancy
never maintained the barbed wire fence within the
railroad corridor. The trial court determined that the
Conservancy had not breached its duty to maintain
fencing because no landowner along the Meadowlark
Trail, including the Sides, truly wanted a fence.
Moreover, the Sides had only recently requested a
fence.
Certainly, the Sides’ argument is a paradox. They
complain that their fence was not maintained. At the
same time, they did not want a fence and would not
let the Conservancy onto their land to maintain the
fence. Thus, the Sides’ argument is seemingly a contradiction. The trial court did not err by weighing
those facts against the Sides. In short, although the
Conservancy had a duty to maintain the existing
fence, the Sides had a duty to allow the Conservancy
on the land to maintain the fence. Therefore, the
Sides are partly to blame for the Conservancy’s failure
to maintain the existing fence. In essence, the trial
court ruled that the Sides were contributorily negligent
by keeping the Conservancy off of their land and not
truly wanting their fence maintained. See K.S.A.
2016 Supp. 60-258a(a).
That said, K.S.A. 58-3212(a)(10)(A) requires the
responsible party to “maintain” “existing” fencing.
Black’s Law Dictionary 1097 (10th ed. 2014) defines
“maintain” as “[t]o care for (property) for purposes of
operational productivity or appearance; to engage in
general repair and upkeep.” “Exist” means “with
respect to understood limitations or conditions.”
Merriam-Webster (online dictionary).

App.50a
Clinton’s testimony about the deteriorated state
of the barbed wire fence raises questions about whether
the fence was in an “existing” state that could be
“maintained.” The trial court made no specific factfindings on whether the “existing” fence was in a
state that could be “maintained.” Instead, it seems
the trial court determined that the Conservancy was
legally excused from maintaining the existing fencing,
even in the future, because of the Sides’ actions in
the past.
Next, we note that under the plain language of
K.S.A. 58-3212(a)(10) the conditions under subsection
K.S.A. 58-3212(a)(10)(A) may occur simultaneously with
subsections (C) or (D). That is, the plain language of
K.S.A. 58-3212(a)(10) requires responsible parties to
maintain existing fencing, as well as install corresponding fencing when the adjacent landowners have the
remaining sides of their property fenced as stated under
subsection (C), and install fencing of the requested
class at one-half the cost when the adjacent landowners
do not have the remaining sides of their property
fenced as stated under subsection (D). In K.S.A. 583212(a)(10), the Legislature used the conjunction “and,”
as opposed to “or,” showing that courts must consider
the clauses within K.S.A. 58-3212 jointly. As a result,
under the plain language of K.S.A. 58-3212(a)(10),
there could be circumstances where there are multiple fences, of different classes, between the trail and
the adjacent property.
Consequently, the trial court erred by excusing
the Conservancy from maintaining the existing fencing
without engaging in proper fact-finding. As a result,
we remand to the trial court to consider if the fencing

App.51a
that exists already on the railroad corridor is in a
condition that can be maintained.
Concerning the Sides’ arguments about the location of the fence, the Sides argue that the fence may
be constructed immediately next to the trail. They
challenge the trial court’s determination that the
Conservancy could construct “an appropriate barbed
wire fence along both sides of the right-of-way” in
two ways.
First, the Sides complain about the Conservancy’s
noncompliance with K.S.A. 58-3212(a)(10)(A). Nevertheless, to the extent K.S.A. 58-3212(a)(10)(A) applies,
because the responsible party must maintain existing
fencing, the location of the existing fencing determines
the location of that fence. There is no language under
the plain language of the statute on relocation of the
fence, which the Sides’ argument seems to require.
Second, the Sides allege that “K.S.A. 58-3212(a)
(10), does not require the fencing of the boundaries of
the railroad right-of-way, it requires the fencing of
the ‘trail.”’ The Sides, however, misstate K.S.A. 583212(a)(10). Subsection (C) states that fencing must be
installed “between the trail and adjacent property
fencing.” Subsection (D) states that fencing must be
installed “between the trail and such property owner’s
adjacent property.” “Between” means “in the time,
space, or interval that separates.” Merriam-Webster
(online dictionary). Thus, from the plain language of
subsections (C) and (D), it is readily apparent that
the fencing must be located in the space that separates
the trail from the adjacent property owner’s land.
Next, the Sides’ argument focuses much on what
the Conservancy is going to do with the rail corridor.

App.52a
The Sides stress that the actual walking path along
the rail corridor is going to be a single lane. Cullen
testified that the walking path would be the flat part
of the railroad bed. The Sides equate the walking path
to the trail. But it is undisputed that the entirety of
the railroad corridor is an easement for trail use.
This means that the entirety of the railroad corridor
constitutes a trail under the Trails Act. As a result,
regardless of whether subsection (C) or (D) applies,
the fence must be located in the space that separates
the Sides’ property from the Conservancy’s trail use
easement.
Despite the preceding, the Sides also cite old cases
about a landowner’s ability to use the railroad corridor
as the railroad operated. For instance, the Sides cite
KC. Rly. Co. v. Allen, 22 Kan. 285, 294, 1879 WL 836
(1879), where our Supreme Court held that a landowner had the right to use the rail corridor “for every
purpose not incompatible with the rights of the road.”
Yet, this caselaw predates the plain language of the
KRTA which supports partition fencing. Moreover,
even in Kansas Central Railway, our Supreme
Court held that the railroad had a “perfect right to
fence up its road. . . . ” 22 Kan. at 294. The landowner
was merely allowed to use the corridor in ways that
did not interfere with the railroad and the railroad’s
fencing. Furthermore, as noted by the trial court in
rejecting the Sides’ fencing arguments, the Sides
presented no evidence that they had a compatible
use for the railroad corridor. Cattle grazing, hunting,
and trapping are not compatible with a public trail.
Moreover, as noted by the trial court, the Sides
presented no “evidence that there [was] tillable ground
near the right of way.”

App.53a
Last, as indicated by the Kansas Farm Bureau in
its amicus brief, when the Conservancy constructs
the fencing, it has a right to enter onto the Sides’
property. In Muhl v. Bohi, 37 Kan. App. 2d 225, 234,
152 P.3d 93 (2007), this court adopted the standard
from Restatement (Second) of Torts § 190 (1964):
“‘A duty or privilege to build or repair a party
wall or division fence between land in the
possession of the actor and land in possession
of another, confers on the actor a privilege
to enter the other’s land at reasonable times
and in a reasonable manner, in order to build
or repair such party wall or division fence.”’
The Muhl court turned to the Restatement because
Kansas’ general fence statutes and caselaw provided
no answer on whether the actor building a partition
fence had a right to enter the neighboring land. 37
Kan. App. 2d at 233-35.
The Muhl case guides this court (1) because the
KRTA also lacks provisions on whether responsible
parties have the right to enter an adjacent property
to maintain or build a fence, and (2) because there is
no caselaw on this issue. Moreover, as in Muhl, the
fact the Restatement supports allowing the fence
building party onto another’s land is persuasive. When
adopting the Restatement, the Muhl court explained:
“If an adjoining landowner is given the statutory
authority to repair or to rebuild a partition fence,
then, by implication, the adjoining landowner should be
permitted to enter on the land of the other adjoining
landowner for that purpose.” 37 Kan. App. 2d at 234.
The same principle applies here. Under K.S.A.
58-3212(a)(10)(A) and (B), the responsible party must

App.54a
maintain existing and future fences. Under K.S.A. 583212(a)(10)(C) and (D), there are situations in which
the responsible party must build fences. The plain
language of K.S.A. 58-3212(a)(10)(A) establishes that
the responsible party must maintain the existing fence
where it already exists. Thus, there is no provision
allowing either the responsible party or the adjacent
landowner to relocate the existing fence. As explained
earlier, K.S.A. 58-3212(a)(10)(C) and (D) require partition fencing.
Therefore, as in Muhl, under K.S.A. 58-3212(a)
(10)(C) and (D), the responsible party has the “statutory
authority to repair or to rebuild a partition fence.” 37
Kan. App. 2d at 234. For these reasons, the Conservancy may enter onto the Sides’ property when
constructing a fence as stated under subsections (C)
and (D). The Conservancy’s right to enter onto the
Sides’ land when maintaining an existing fence under
subsection (A) likely depends on its location, that is,
whether it is a partition fence. As a result, on
remand to the trial court, if the existing fence is in a
state that can be maintained, the trial court should
consider if the fence is a partition fence. If so, the
Conservancy would have a right to enter the Sides’
property to maintain the fence.
Because we can decide all fencing issues without
considering Kansas’ general fencing statutes, we decline
to reach the parties’ arguments on the application of
Kansas’ general fencing statutes.
Affirmed in part, reversed in part, and remanded
to the trial court with directions to reconsider its
fencing ruling in a manner consistent with this opinion.

App.55a
DECISION OF THE DISTRICT COURT OF
MCPHERSON COUNTY KANSAS
(JUNE 1, 2018)
IN THE DISTRICT COURT OF
MCPHERSON COUNTY, KANSAS
________________________
CENTRAL KANSAS CONSERVANCY, INC.,

Plaintiff,
v.
CLINTON L. SIDES, ET AL.,

Defendants.

________________________
No. 15-CV-67

Before: Marilyn M. WILDER, District Judge.
On September 19, 2016 the Court ruled on the
Summary Judgment Motions filed by the parties.
The Court adopts those Findings of Fact and Conclusions of Law except as modified in the Court’s ruling
dated July 10, 2017. The Court further adopts the
Findings of Fact and Conclusions of Law made in its
July 10, 2017 ruling.
On January 22 and 23 and February 12, 2018
Plaintiff’s requests for mandatory and prohibitory
injunctions and continuing order of restitution were
tried to the Court. Highly summarized, Defendants
argue against the Plaintiffs requested relief based

App.56a
upon the following: the request is premature as the
Plaintiff is not prepared to build what Defendants
refer to as a legally compliant trail:” Plaintiff has a
history of inequitable conduct and is therefore not
entitled to an equitable remedy; and such remedy
would contravene the public interest. Defendants further argue that Plaintiff is not entitled to the extraordinary remedy requested because Plaintiff cannot
show that the matter is ripe nor that Plaintiff will
suffer irreparable injury and that the Court must
balance the interests of Defendants.
The history and character of this dispute were
reflected in the arguments made to the Court by each
party—they seemed to talk past each other instead
of responding to each other. Neither side seemed to
understand what the other was saying or truly
comprehend the position of the other party. Even in
closing arguments, neither party seemed clear about
or responsive to the arguments of the other. Throughout
the case there was seemingly little agreement even
over the issues to be decided. This is not due to the
lack of intelligence or skill of counsel for the parties.
Both parties were represented by competent, prepared
counsel. Each side, however, seemed entrenched in
positions that were unmovable and each painted the
other with a broad brush of disdain. Each side has its
supporters and detractors and although the litigation
involved only one plaintiff and two married defendant landowners, it was clear that many others in the
community feel personally involved in the dispute
and the litigation was clearly “us versus them” at
many levels. Although the Defendants were apparently
not personally involved in the late 1990s when some
of the events discussed at trial took place, the Plaintiff

App.57a
and various community members which came to include
Defendants have been at odds for more than twenty
years. In that time, positions have been solidified and
patterns of conduct and expectations have been created
that will be difficult to move or change, no matter
what the ruling of this Court or of higher courts might
be. Both sides to this dispute have acted poorly in the
past and, to some extent, continue to do so.
Turning to the issues to be resolved, in addition
to the findings made previously by the Court, the
Court makes additional Findings of Fact as follows:
1. The subject matter of this litigation is only
the roughly .75 miles of right-of-way that transverses
Defendants’ property. That is the only land that is at
issue in the Petition and Answer and Counterclaim
filed herein, is the subject of competing claims of the
parties hereto and is within McPherson County. At
least some portion and perhaps most of the nearly
45.6 miles of the trail easement which is the subject
of this dispute and under Plaintiffs control is within
Marion County.
2. Plaintiff has improved and maintained what
is referred to by Plaintiff as the Meadowlark Trail in
McPherson County from Moccasin to Pawnee. Another
portion of the trail from the City of Lindsborg to
Shawnee has also been improved and maintained in
cooperation with Plaintiff and the City of Lindsborg.
The easement over Defendants’ land is part of what
Plaintiff has referred to as “Phase III” of development and Phase III, undeveloped, consists of approximately five miles of the easement that sits between
Pawnee and Shawnee. The combined total trail previously developed in Phases I and II is approximately

App.58a
7.6 miles. The Meadowlark Trail covers approximately 12 miles of the easement under Plaintiffs control.
3. Defendants are adjacent landowners only to
approximately .75 miles of right of way at issue in
this litigation and are not adjacent landowners to
any other portion of the trail easement claimed by
Plaintiff.
4. The two portions of improved trail have been
bladed to level the railroad ballast that remains,
stirulent has been used on the ballast to inhibit weed
growth; crushed limestone has been placed on top of
the ballast for a smoother surface than ballast provides; former railroad bridges have been decked and
railed if necessary; signs have been posted advising
trail users to be respectful of adjoining landowners’
property, to take out what is brought in, and advising
that no motorized vehicles are allowed and no hunting
is allowed on the trail; some portions of the trail have
trash receptacles and perhaps a bench; volunteers
provide clean-up, mowing and, sometimes, weed control.
Plaintiff also works with McPherson County officials
for weed control on the improved portions of the trail,
as well as at least some portions of the unimproved
trail.
5. Very little has been done on unimproved
portions of the trail, approximately 33 miles total,
including the .75 miles at issue here.
6. Plaintiff demonstrated at trial that it is ready,
willing, able and has financial resources to begin
trail improvements on the Meadowlark Trail that
transverses Defendants’ property and intends to
develop the trail to the same level as the other
completed phases of the trail. In fact, Plaintiff would

App.59a
have begun development in at least August of last
year had volunteers not been prevented from entering
the property by Defendants and their supporters.
7. With regard to financial resources, the evidence was that Plaintiff has received every large
grant for which it has applied and had approximately
$50,000.00 in the bank at the time of trial. According
to testimony of Michele Cullen, current President of
the Board of Plaintiff, Plaintiff has spent approximately $43,000.00 per mile in trail development to
date. Thus, even without receiving a grant, Plaintiff
has funds to complete less than one mile of trail and,
based upon history, it seems likely that Plaintiff will
receive grant money for the project.
8. The evidence was clear that Plaintiff has
developed the roughly seven miles of trail now completed by combination of volunteer labor and contracted
labor. Their method was successful in prior development and there is no reason to believe it would not
be successful in developing the trail that transverses
Defendants’ property.
9. Defendants urge the Court to make a finding
that Plaintiff has failed to perform its duties under
the Kansas Recreational Trails Act, K.S.A. 58-3211
et seq. (hereinafter, KRTA) and, therefore, they should
not be allowed to continue trail development. The Court
cannot make that finding. First, only approximately
.75 miles is at issue in this litigation and, as noted
above, a large portion of the 45.6 miles of railbanked
right of way is not located within the jurisdiction of
this Court as it is located in Marion county, adjacent
to McPherson County. Some of the testimony propounded by Defendants involved the condition of the
easement in Marion County. The Court is appropri-

App.60a
ately reluctant to make findings regarding real estate
in Marion County but will note the evidence that was
presented by Defendants regarding the trail in portions
of Marion County. Even the KRTA does not specify a
level of development required for a railbanked trail.
Therefore, the fact that a great portion of Plaintiff’s
trail remains undeveloped is not proof of failure to
comply with KRTA. Furthermore, looking at the
KRTA requirements discussed at trial and found at
K.S.A. 58-3212, the Court finds that the Plaintiff is
meeting its obligations, though certainly not perfectly
or as thoroughly as possible, and will detail those
findings below.
10. Plaintiff has given resources, time and attention to weed control, particularly noxious weeds, along
the trail as required by K.S.A. 58-3212(a)(1). There
was evidence of volunteers using readily available
chemicals as well as paying for McPherson county
personnel to spray for weeds as was the practice of
the Union Pacific Railway when it had the right-ofway. The Court does not discount the testimony of
witnesses for the defendants who testified to seeing
noxious weeds along the trail; however, there is not a
requirement that there never be a weed found on the
trail. It appears to be possible for Plaintiff to be more
attentive to these concerns, but there is no evidence
that it has utterly failed in its duty. The Court also
finds that the opposition to the trail, including Mr.
Sides, has attempted to intimidate Plaintiff off the
right of way when they were attempting to perform
their statutory duties. Defendants’ complaints that
Plaintiff is not performing its duties ring a bit hollow
in light of that testimony.

App.61a
11. There was no evidence from either party
regarding Plaintiff’s compliance with K.S.A. 58-3212
(a)(2).
12. There was evidence that Plaintiff has posted
trail-user education and signs regarding trespassing
and safety, as required by K.S.A. 58-3212(a)(3), along
the trail that exists within McPherson County. There
was also evidence that signs placed by Plaintiff had
been removed by landowners, including Mr. Sides
and Mr. Presnell who testified to their own removal
of signs, and other signs had been shot at or run over.
(Photographs introduced at trial also showed those
signs in locations in Marion County.)
13. There was evidence that Plaintiff provides
for litter control as required by K.S.A. 58-3212(a)(4)
by placing trash receptacles along developed portions
of the trail, posting signs prohibiting littering and by
asking volunteers to pick up any trash not so deposited.
14. The Court heard a great deal of evidence
regarding Plaintiff’s efforts or lack thereof in developing
or maintaining the trail “in a condition that does not
create a fire hazard.” K.S.A. 58-3212(a)(5). While it is
clear that on some portions of the trail the Plaintiff
has apparently done little or nothing, i.e. mowing, to
prevent fire hazard the evidence was not clear that
the Plaintiff had created a fire hazard. By way of
example, cedar trees are very common in Kansas and
seem to be commonly found in railroad rights of way
still in use. Therefore, the existence of cedar trees in
the right of way, in and of itself, cannot be considered
as creating a fire hazard. Chief Deal, Chief of the
City of McPherson Fire Department testified it is not
a violation of any fire code to have standing dry grass.
The only evidence of any fires along any portion of

App.62a
the trail, in McPherson County or in Marion County,
was a fire that was apparently set to one of the railroad
bridges not on Defendants’ property and that Defendants’ own controlled burn got out of control one time.
Even in that instance, Defendants did not require
the assistance of any fire department to extinguish
the fire. Chief Deal testified in fact that he was not
aware of any fire runs the department had made to
the trail in McPherson County. He further testified
that generally what the department sees in rural
areas are controlled burns that get out of control.
While the absence of a fire does not necessarily prove
that a fire hazard does not exist, the Court cannot
make a finding that the Plaintiff is maintaining the
trail in a manner that creates a fire hazard. Defendants displayed pictures of cedar trees in the right of
way over their property for which they attempt to
claim damage if they were removed and yet they
complain that those cedar trees and others like them
along the right of way create a fire hazard. As is a
pattern, Defendants’ claims are inconsistent.
15. The Court finds that Plaintiff has designated
the trail for non-motorized vehicles only, with statutory exceptions, as required by K.S.A. 58-3212(a)(6)
and that no hunting or trapping is allowed on or from
the trail according to K.S.A. 58-3212(a)(7). Signs to
that effect were posted by Plaintiff along the roughly
46 miles and, again, some of those signs have been
shot at, removed and/or damaged, presumably by trail
opponents. While the Court can understand not wanting to use limited resources to replace vandalized or
stolen signs, the Plaintiff could have been more diligent
in ensuring signs remained in place or were replaced
when vandalized or stolen. The Court also observes

App.63a
that the statute does not require Plaintiff to ensure
or guarantee that no motorized vehicles ever use the
trail.
16. The evidence at trial supports a finding that
Plaintiff “provides” for law enforcement along the
trail as required by K.S.A. 58-3212(a)(8) by notifying
local law enforcement of the existence of the trail,
providing a key to bollards to allow for law enforcement and emergency services to the trail, and cooperating with law enforcement as needed. Chief Deal
testified that the fire department and EMS were able
to respond to a medical emergency on the trail around
the Pawnee area by accessing the trail and rendering
aid to the patient. There was testimony from more
than one witness about various calls to law enforcement for incidents along the trail when trail opponents
confronted volunteers and board members of Plaintiff as they were attempting to complete their obligations under the KRTA or attempting to keep the trail
safe by removing barbed wire fences erected by opponents across the open and developed portions of the
trail. Ms. Cullen testified that she believed CKC has
good relationships with the various law enforcement
agencies involved and there was no evidence to the
contrary. There was simply no evidence that law
enforcement or other emergency service are not available along any portion of the trail.
17. The evidence at trial also supports a finding
that Plaintiff grants easements to adjacent property
owners to cross the trail as required by K.S.A. 583212(a)(9). Ms. Cullen testified that only one fanner
was crossing the trail regularly and that owner had
not requested an easement for crossing but was not
doing any damage to the trail. Certainly, CKC did not

App.64a
formalize a crossing easement, but CKC is not objecting
to a landowner regularly crossing when no damage is
done to the trail. She also testified that another
landowner, Mr. Ledell, apparently dug through the
ballast before the trail was developed and created his
own crossing. When CKC was developing that portion
of the trail, they asked the contractor to create a
slope down and back up for purposes of the trail but
also to make it wide enough and flat enough to allow
the farmer to continue to use the crossing. Her
testimony was that that action was taken prior to
consultation with the landowner, but he confirmed
with her later that the way the trail was developed
still allowed for his crossing and “worked great.”
Again, it probably would have been a better course of
conduct to discuss the work with the landowner prior
to it being performed, but it seems to have worked
well for both parties as it was completed.
18. The evidence regarding Plaintiff’s compliance
with its fencing obligations under K.S.A. 58-3212(a)
(10) was more mixed. Certainly, under a strict reading
of the statute, Plaintiff has not maintained any
existing fencing since it received its easements in 1997
nor has it installed any fencing along the right-ofway; however, there was evidence that CKC surveyed
landowners along the easement. In 1997 Plaintiff
mailed 50 letters requesting response from landowners
regarding their particular fencing needs. They received
only 15 responses and of those, only 5 responses were
properly requesting installation or maintenance of
fencing. By way of example, some landowners requested a variety of fencing materials, “subject to change.”
The landowners wouldn’t commit to the type of fence
they were requesting. More than one landowner

App.65a
requested a cedar fence or redwood fence six feet to
ten feet in height. The letters from landowners also
make clear the landowners’ opposition to the trail
and the sense that their rights were ignored by the
federal government and the railroad and the resulting resentment to CKC and its ability to develop a
trail. It appeared at least some landowners were asking
for the most expensive fence possible, assuming
Plaintiff was fully responsible for the cost and
seemingly did not understand that the KRTA only
requires the responsible party to pay for one-half of
the cost of installation of fencing and the landowner
is responsible for the other half. On the other hand,
it appears that nothing was done by CKC regarding
fencing after that survey. Ms. Cullen testified that it
was her assumption that most landowners didn’t
want fencing and that some were farming even into
the easement and that CKC didn’t object to that
because it didn’t encroach greatly or at all upon the
CKC use of the easement. Certainly one could find fault
that Plaintiff hasn’t done enough regarding fencing
in that they have been very passive in that regard
and have waited for someone to ask for maintenance
or installation of a fence; however, there was no evidence that any landowner ever made a serious request
for fencing that had been ignored by Plaintiff. Mr.
Sides, for his part, testified repeatedly that he doesn’t
want Plaintiff on “his” property and that he “owned”
the right of way or that he “had a deed” to the right
of way. Again, a strict reading of the statute puts an
affirmative duty upon CKC to maintain or install
fencing; however, if no landowner is requesting maintenance or installation of fencing or will allow Plaintiff on the property to maintain or install fencing, it is
hard to see how Plaintiff is failing in its duty. Put

App.66a
another way, if no landowner seems to want fencing
along the right of way or is willing to pay half the
cost of such fencing, how is it a breach of duty for
Plaintiff not to provide fencing?
19. Likewise, the evidence was mixed regarding
Plaintiff’s obligation to “maintain all bridges, culverts,
roadway intersections and crossings on the trail”
pursuant to K.S.A. 58-3212(a)(11). The Plaintiff has
done work on bridges and culverts on the developed
portion of the trail, approximately 7 miles of the 45.6
miles of easement. The evidence was that nothing
had been done to bridges or culverts on the remaining
miles. The statute requires this maintenance “essential
to the reasonable and prudent operation of the trail”
and there was no evidence that the lack of maintenance
impeded trail operation. The statute also requires
such maintenance “needed for drainage, flood control,
or use of easements for crossing the trail. . . . ” There
was also no evidence of any harm to any landowner
due to poor drainage or flood control or for trail
crossing other than from Mr. Sides who, again, testified
that he does not want Plaintiff on what he believes is
his property, has posted No Trespassing signs at the
entrance of the right of way from the road and has
also installed barbed wire fence across the right of
way. Further, when contacted by Ms. Cullen in 2013
to discuss trail development across his property, he
made clear he did not believe Plaintiff had the right
to develop the trail across his property. He stated at
trial that he did not then (around the time of the
2013 meeting with Ms. Cullen and Kaci Morales) and
does not now want CKC to develop the right-of-way.
His complaint that they have not maintained the
culvert on his property when he will not allow them

App.67a
on his property gives the appearance of a complaint
for sake of complaining. Mr. Sides made clear in his
testimony at trial that he continues to believe that
he does in fact own the right-of-way, in spite of the
Court’s summary judgment ruling to the contrary,
and that he does not want Plaintiff on what he
believes is his property for any purpose. He further
testified that he has benefitted from the Plaintiff not
being on his property. This Court cannot find that
Plaintiff has failed in its duty to maintain bridges
and culverts in a manner that is essential to trail
operation or as needed for drainage, flood control or
use of crossing easements or that Mr. Sides should
now be heard to complain about the Plaintiff not
being active on the right-of-way across his property.
20. Finally, in the list of complaints of Plaintiff’s
failure under the KRTA, Defendants complained about
the failure of Plaintiff to establish a suitable bond
with each county where a portion of the recreational
trail is or will be located as required by K.S.A. 583212(b). The Court heard that the Plaintiff has not
established a bond with Marion County; however,
this Court has no jurisdiction in Marion County and
no entity or person from Marion County was made a
party to these proceedings. The evidence was that
Plaintiff did establish a bond with McPherson County
in 2013. Defendants attempted to present evidence
regarding the sufficiency of the bond but because the
evidence shows that McPherson County Commissioners
approved the amount of the bond and neither the
County Commissioners nor McPherson County itself
were parties to this litigation, the Court refused to
hear testimony regarding the sufficiency of the amount
of the bond agreed upon between Plaintiff and McPher-

App.68a
son County. While it is true that Plaintiff did not
fulfill this duty for fifteen years, it is currently fulfilling this duty and has done so for approximately
five years.
21. While there was complaint that Plaintiff was
not providing proof of insurance as required under
K.S.A. 58-3212(c), it appears from the evidence that
Plaintiff has consistently met that requirement.
22. The relief granted under KRTA is for the
Court to order compliance. See, K.S.A. 58-3215. Defendants could have filed a counter-claim in this litigation
to more fully litigate their allegations of Plaintiff’s
failure to comply with KRTA; however, Mr. Sides testified he does not want a court order for Plaintiff to
comply with KRTA, the remedy provided by KRTA.
Mr. Sides testified that he only wants a finding that
Plaintiff has not complied with KRTA to take that
finding to the Surface Transportation Board (STB) in
the hope that the agency will take action against
Plaintiff and revoke its trail use agreement. It should
also be noted that the Surface Transportation Board,
in its decision in STB Docket No. AB-406 (Sub-No.
6X), stated that photographs of the trail, presumably
in a completely undeveloped condition in 2001, were
wrongly relied upon by landowners who seemed to
incorrectly assume the Conservancy was under an
affirmative duty to develop a trail for advanced
recreational use and that the Surface Transportation
Board would get involved in determining the type or
level of trail for a specific right-of-way. The STB did
state that “trail sponsors may not use a right-of-way
in such a manner as to present a public nuisance
under state and local laws, applied in a non-discriminatory manner.” This Court cannot make the finding

App.69a
described by the Surface Transportation Board from the
evidence presented herein.
23. There was testimony, mostly from Tracy
Presnell who is not a party to this litigation, that
Plaintiff did not pay property taxes for a period of time
after obtaining the easement. Payment of taxes is
one of few requirements by the National Trails Act upon
a holder of an easement. (See, 16 U.S.C. 1247(d)). It is
not a requirement under the KRTA. There was evidence
that Mr. Presnell went so far as to personally intervene
in proceedings at the Kansas Board of Tax Appeals
involving Plaintiffs requests for exemption from property tax, arguing that no exemption should be granted.
The first request for exemption was in fact denied
but ultimately Plaintiff was granted an exemption
from payment of property tax. The argument of
Defendants seems to be that the failure to pay taxes
while attempting to obtain an exemption was evidence of bad faith on the part of Plaintiff and that
the first attempt at obtaining an exemption which
was not statutorily supported was evidence of bad
faith on the part of Plaintiff. The Court finds no evidence of past bad faith on the part of Plaintiff
regarding its obligation to pay taxes and finds that it
is meeting its tax obligations currently in that it has
been exempted from paying taxes.
24. Defendants appear to use the 1997 Trail Plan
submitted by Plaintiff to McPherson County and
other entities as evidence of representations made
and not kept by Plaintiff pointing to, for example, the
representations that the trail would be developed
within two years and that professional engineers would
inspect the bridges, among others. Another plan was
distributed in 2000 that was quite similar to the

App.70a
1997 plan. There was no evidence that either Defendant in this case was even aware of those plans or saw
them prior to the litigation. There was certainly no
evidence that the Defendants relied upon those plans
as representations of Plaintiff or that reliance, if it
existed, formed the basis of Defendants’ beliefs and
actions regarding the ownership of the Meadowlark
Trail. In fact, Mr. Sides testified that he took down a
No Trespassing sign posted by Plaintiff in 2000 or
2001 that indicated Plaintiff was the owner of the
right-of-way. He further testified that when Plaintiffs
board members contacted him in 2013 about developing
the trail across his property he told them they would
need court action to “take my rights away” and,
again, that he has a deed to that property and owns
the trail property. There is no evidence that the trail
plans constituted representations by Plaintiff relied
upon by Defendants to their detriment. Nor are those
plans themselves evidence of bad faith or inequitable
conduct on the part of Plaintiff.
25. The deeds for the subject property admitted
into evidence belie the Sides’ contentions of ownership of any interest in the right-of-way, including Mr.
Sides’ claim that he has “a deed” to the right of way.
The deeds clearly exclude the railroad right-of-way
by their descriptions as well as noting that the
grants are subject to “easements of record.”
26. Mr. Sides further testified that he only
“recently” became aware of his right to compensation
with respect to the trail easement. He indicated he
believed that he had “full control and full use” of the
right-of-way property. He claimed, upon cross-examination by his attorney, that if CKC had entered his
property in 2003 to do fire control or build fences or

App.71a
maintain fences he would have allowed it and, presumably, he would have then acted upon his right to
compensation. That testimony, however, is not consistent with his other testimony that he took down a
sign in 2000 or 2001 that Plaintiff posted claiming its
ownership and control of the trail and that he took it
down because he “did not agree with that.” It was
apparently somewhat widely known that other landowners sought and received compensation for the
trail taking through litigation in federal court in
Wichita, yet Mr. Sides puts the full blame that he did
not take action upon Plaintiff and their failure to make
known to him that they had control of the right-ofway. His continued persistence over the past 17 or
more years that he owns the property, including his
removal of a sign in 2000 or 2001 that informed him
otherwise, is not consistent with his claim that had
he only known of Plaintiffs claim of ownership prior
to 2003, he would have requested compensation. The
Court finds that Mr. Sides’ contention that he relied
upon the silence or representations of Plaintiff to his
detriment is not credible as it is inconsistent with his
own testimony. There was no evidence from Ms. Sides
regarding any representations or any reliance upon
them. Ms. Sides relied upon her husband’s testimony
in all regards and so there is likewise no evidence
that she relied upon any representations of Plaintiff
to her detriment.
27. It is clear from the Plaintiffs internal documents admitted into evidence and from the Meadowlark
Trail Plans promulgated and distributed to the public
that in 2000 Plaintiff was hoping to find one or more
governmental partners to help or take over the process
of development for the 45.6 miles of trail for which

App.72a
Plaintiff assumed responsibility in 1997. It should be
noted that the KRTA was adopted between the time
that other entities were part of negotiating with the
railroad and the time that the deeds were actually
transferred to Plaintiff. Thus, the Plaintiffs responsibilities as a trail sponsor increased in that time.
Further, evidence at trial made obvious that Plaintiff
has faced significant opposition since assuming the
responsibility for the 45.6 miles of trail. These developments were likely daunting to a relatively small
group of volunteers, no matter how committed they
were to their cause. The Court cannot not find that any
of this evidence equates to bad faith or inequitable
conduct on the part of Plaintiff.
28. Evidence at trial showed plainly and quite
clearly that Plaintiff has faced opposition at the local
level and in various legal proceedings throughout the
21 years it has held the right of way. Landowners
have removed signs posted; erected barbed wire
fences across the trail on both developed and undeveloped portions of the trail; made complaints to the
McPherson Board of County Commissioners, successfully urging them to complain to the Surface Transportation Board; some landowners involved themselves
at the Kansas Board of Tax Appeals; and two separate
actions were filed with the Surface Transportation
Board seeking revocation of the right-of-way agreement. A Request to Re-open one of those proceedings
was also filed by landowners. The landowners, specifically including Defendants in this case, simultaneously
now complain of lack of action and complained and
interfered in the past when Plaintiff attempted to
fulfill its statutory obligations, including weed control
and others. Given the amount and types of opposition,

App.73a
it is no wonder that Plaintiff has clearly had difficulty
meeting the letter of the law in KRTA. That is not
equivalent, however, to finding that Plaintiff has
failed to follow the KRTA nor that Plaintiff has used
the right of way in a manner that presents a public
nuisance. Certainly circumstances have changed since
the STB last spoke on the issue on May 3, 2001.
While it might have been possible for a state court to
make a finding in 2001 or 2006 or even 2010 that
Plaintiff was not in compliance with the KRTA, this
Court cannot make that finding based upon evidence
at this trial.
29. The Court does not lay all blame for Plaintiff’s lack of progress at the feet of opposing landowners.
It is clear that Plaintiff consists of a relatively small
group of people, roughly 25 volunteers, including
some board members, at any given period of time
with understandably limited resources and energy.
At trial Plaintiff showed little concern for its statutory
duties under KRTA as reflected by the testimony of
Ms. Cullen that the Board has no procedures or mechanisms in place to identify what laws it needs to comply
with and then find a way to comply. Given the opposition Plaintiff has faced, it is shocking to see Plaintiff’s
lack of attention regarding its legal obligations.
30. Still, despite that expressed general lack of
concern on the part of Plaintiff for compliance with the
law, the Court cannot find Plaintiff is not complying
with the KRTA or ignoring its obligations under the
KRTA. The 1997 and 2000 Meadowlark Trail Plans
promulgated by Plaintiff and previously discussed
herein detail Plaintiff’s plans to comply with its obligations under the KRTA even though the KRTA
wasn’t specifically mentioned. The Court has already

App.74a
outlined its findings regarding Plaintiffs compliance
with the KRTA. It has developed approximately half of
the Meadowlark Trail in the past five years and that
development included work on bridges and culverts.
31. As part of the Sides’ claim of damage that
would be done to them if Plaintiff is granted an injunction and/or an order of restitution, they claim the value
of 224 trees, some of which have “grown up” in the
fence line and in the right of way itself and some of
which have been planted by them. They were not
clear regarding how many trees had been planted by
them and how many had simply grown up without
being planted. The Sides have in the past used the
right-of-way for pasture. There was evidence at trial
that farmers generally don’t allow large numbers of
trees to grow in pastures. A view of the plentiful open
pastures in this part of Kansas supports this testimony.
Although the Sides claim to have planted at least
some of these trees, they also complain that trees in
the right of way constitute a fire hazard. The trees
cannot be both a fire hazard that should be removed
and the source of damages if removed. There is no
evidence to suggest that the Defendants’ belief that
the right-of-way belonged to them is or was ever a
reasonable belief. In short, Defendants’ claims regarding damage that would be done to them by removal of
trees in the right of way is not credible because, again,
their claims are inconsistent.
32. There is evidence that the Sides will likely
need one or more crossing easements to continue their
farm operations or the operations of any tenants they
may have, yet they refuse to request crossing rights,
presumably because they don’t want to compromise

App.75a
their position that they own the right of way. They
did not ask the Court to grant any crossing rights.
33. Defendants urge a finding regarding Plaintiff’s bylaws. Plaintiffs bylaws were not introduced
into evidence and the Court could find no testimony
regarding Plaintiff’s bylaws. There is, therefore, no
evidence that the bylaws of Plaintiff require it to
maintain a record of its actions. There is evidence
that Plaintiff is ready to proceed to develop the trail
across Defendants’ property if Plaintiff can get access
to the property. As stated previously, the evidence in
support of this finding is that Plaintiff has the funds
to develop the trail, even if no grant is received;
Plaintiff has volunteers ready to do the work needed;
Plaintiff has attempted to determine what work in
the one inspection and was prepared to begin work on
the trail on August 5, 2017 but was prevented from
even entering the property by Defendants and others
who acted at request of Defendants. The fact that no
document was produced showing an affirmative vote
of the Plaintiff s members to move forward with trail
development across Defendants’ property is not sufficient for the Court to find that Plaintiff is not
willing, ready and able to proceed with development
across Defendants’ property.
34. The evidence is that the trail across the
Defendants’ property would be developed similarly to
the other phases of the developed trail. Although the
actual trail would only be eight to ten feet in width,
there is nothing in the law that limits Plaintiff to use
of only that much of the right-of-way. Kansas case
law does allow a servient landowner to make use of a
railroad right-of-way in any way that is not inconsistent with the railroad’s use: however, Defendants have

App.76a
declined to name any specific use they would make of
the right-of-way not “needed” by Plaintiff. By way of
example, all parties seem to agree that cattle should
not be near the walking path or people so it would
not be appropriate to allow Defendants to pasture
cattle right up to the edge of a walking trail eight to
ten feet in width. Similarly, there is no evidence that
there is tillable ground near the right of way so
Defendants can’t claim a need or desire to farm that
particular ground. Because Defendants fail to identify
any specific use they wish to make of the right-ofway that under the control of Plaintiff, there is no
need to limit Plaintiff’s use of the right-of-way which
it has been granted through the Surface Transportation
Board. The Court cannot find, based upon the evidence at trial, that Defendants are entitled to any
use of the right-of-way.
35. It is also not appropriate to find that Plaintiff
has “no plan to repair or maintain drainage structures”
or “no plan for fencing” on the right-of-way crossing
Defendants’ property. The testimony of Ms. Cullen
on those issues was that Plaintiff would “have to
meet with Mr. Sides and decide what our strategy
was going to be for fencing those cattle to stay off the
trail.” She further explained that they “could not make
plans as to what we were going to do for fencing until
we had a meeting with him and decided between
himself and CKC what was needed. I’m not going to
go in there and put up fencing and then have him tell
me it wasn’t what he wanted or vice versa.” She also
testified she was not personally aware that the
culverts on the easement across Defendants’ property were silted out and had not yet determined the
cost to repair those culverts. Given that the access by

App.77a
Plaintiff to the right-of-way across Defendants’ property has been extremely limited, due to action on the
part of the Defendants, it is not a surprise that
Plaintiff isn’t aware of the condition of culverts and
the lack of a plan cannot be blamed upon Plaintiff as
Defendants seek to do.
36. There is no evidence that the bridges on the
right-of-way across Defendants’ property require inspection by a professional engineer. The clear intention of
the KRTA, and of the Plaintiff, is that no motorized
vehicles will be on the bridges. Chief Deal testified that
the fire department has vehicles that could traverse
property without using bridges. The only mentions of
a professional engineer inspecting bridges are in the
1997 and 2000 Trail Plans submitted by Plaintiff to
various entities. As noted previously, those plans do
not constitute a contract with any person or entity.
The Court cannot find that because the bridges have
not or will not be inspected by a professional engineer
that Plaintiff is failing in any duty or requirement or
that Plaintiff is not ready, willing and able to proceed with development of the trail across Defendants’
property.
37. The evidence is that, had Plaintiff been able
to access the trail across Defendants’ property in
August of 2017, they were prepared to install a cattle
gate at the entrance of the trail to prevent cattle
from leaving the property while Plaintiff began work
on the property and they were prepared to begin
mowing and take down a few trees and “do some
general start up clearing.” Ms. Cullen testified they had
25 to 28 volunteers that day, a comparatively large
group, indicating a lot of interest in beginning work
on that portion of the trail.

App.78a
38. Defendants assert that the matter is not ripe.
The Court cannot imagine that the matter could ever
be more ripe. So long as Defendants believe and insist
that they own the right-of-way and take actions to
exclude Plaintiff from the right-of-way, Plaintiff cannot
take any action to even begin to develop the right-ofway by mowing and clearing brush and trees. Plaintiff also cannot, as to the disputed land, comply with
the requirements of the KRTA, such as for weed
control, as long as Defendants threaten with trespass
and provide barriers to the work, both in terms of an
actual barrier to the right-of-way, i.e., the barbed
wire fence across the entrance, and the equipment
and implements parked across the middle of the
right-of-way preventing any actual work. Defendants
have shown a complete unwillingness to work in any
fashion with Plaintiff to allow it to complete its
intended work. Because the Plaintiff is ready, willing
and able to develop the trail and because Defendants’
stated position is to deny the Plaintiff that opportunity, the matter is ripe.
39. The encroachments physically placed by the
Defendants are not “minimal” as asserted by Defendants. Exhibits at trial showed farm equipment and
implements and other obstructions parked across the
middle of the right of way. These encroachments could
not be moved without assistance of vehicles with a
capacity to tow. In addition, a barrier in the form of a
barbed wire fence has been placed at the entrance to
the right of way with a “No Trespassing” sign attached.
These are not “minimal” encroachments. Compensatory or nominal damages will not suffice to resolve
the issues between these parties or provide a remedy
to Plaintiff.

App.79a
40. As stated previously, the evidence is clear
that Plaintiff has shown it is ready, willing and able
to begin development of the trail across Defendants’
property and, additionally, Plaintiff has shown an
irreparable injury. Plaintiff cannot proceed to do the
work it is legally entitled and required to perform on
the easement it has been granted because Defendants are insistent, wrongly, that they own the easement. They have made known to Plaintiff that Plaintiff
is not to be on-their-property and have placed barriers
to Plaintiff doing its work. Plaintiff has shown that it
has the capacity to develop an additional .75 miles of
trail but is prevented from doing so by the actions of
the Defendants. Defendants even alluded to continuing
their opposition to any work on the trail while the
matter is appealed. These facts scream for an
injunction against Defendants.
41. The Court agrees with Defendants that public
interest is served by requiring Plaintiff’s compliance
with the KRTA; however, Defendants have stated they
actually do not want the Plaintiff to comply with the
KRTA and specifically did not file an action to that
end because the stated remedy in such an action is a
compliance order. Plaintiffs requested injunction
against the Defendants will actually allow the Plaintiff to comply with the KRTA as it relates to the
easement over Defendants’ land, free of interference
by Defendants.
42. Defendants are correct that one seeking an
injunction should act promptly. It is also correct that
Plaintiff appears to have acted as promptly as possible
in bringing this suit in 2015 after they were ready to
actually begin development across Defendants’ property
and after being advised by Defendants that they would

App.80a
need a court order to do so. Plaintiff was apparently
only ready to actually begin work across Defendants’
property in late 2014 or early 2015. Because there
was no time limit for development imposed by federal law and because, as the Court has ruled, the twoyear time period established by the KRTA does not
apply to this trail, the fact that it took 18 years for
Plaintiff to be ready to develop across Defendants’
property is irrelevant.
43. Granting to Plaintiff the requested relief in
no way usurps the authority of the Surface Transportation Board, as urged by the Defendants. Defendants provided evidence that the Surface Transportation
Board would consider certain findings from a state
court on these issues. The fact that the Court is not
making the findings requested by Defendants does
not then mean that this Court is usurping the authority of that federal agency.
44. The KRTA does not require Plaintiff to bear
the full cost of fencing along the right of way. KRTA
requires Plaintiff to pay one-half of the cost of fencing.
There were no arguments or evidence presented to
the Court that any other fencing statutes apply to
this case. If Defendants request fencing from Plaintiff, Defendants are obligated under the KRTA to pay
one-half of the cost of that fencing.
CONCLUSIONS OF LAW
1. The Court adopts the Conclusions of Law previously made in its rulings October 12, 2016 and July
10, 2017.
2. The Defendants’ estoppel argument fails. There
is no evidence that any representations, silence or

App.81a
conduct of Plaintiff caused Defendants to believe any
certain facts existed. While Plaintiff has clearly been
slow to act and did little or nothing to develop any
portion of the nearly 46 miles of trail between approximately 2000 or 2001 and approximately 2013, there
were no acts, representations, admissions or silence
when a duty to speak existed that reasonably induced
Defendants to believe that Defendants and not Plaintiff owned the right of way.
3. Further, the Defendants’ contentions at trial
that they “owned” the right of way and had “a deed
to” the right of way are inconsistent with the Court’s
prior rulings in this matter and are in no way supported by the evidence at trial, including Defendants’
own evidence.
4. Defendants’ estoppel-by-inaction argument presumes that Plaintiff had the duty under KRTA to
complete the trail within two years or to bring the
trail to a certain level of development under federal
law. The latter is not true, as discussed above and in
previous rulings, and this Court has ruled that the
so-called “two-years to develop” rule under KRTA
does not apply to this trail.
5. The Court cannot conclude, as requested by
Defendants, that there is doubt as to whether an
injunction should be granted. It is clear from the evidence that Defendants will not allow Plaintiff to
enter the right-of-way upon which Plaintiff is entitled
to develop a trail without a court order. Although the
Court did not enter direct orders as part of its ruling
on the Summary Judgment motions, the Court made
clear in its Findings and Conclusions that the Plaintiff had the right to develop the trail on the right of
way that crosses Defendants’ property and further

App.82a
that Defendants had no right to exclude Plaintiff
from the property. In spite of these rulings, Defendants took action to exclude Plaintiff from the property
on August 5, 2017 with Mr. Sides telling Ms. Cullen
that he would not allow the group on “his” property
to destroy trees and grass. He clarified that he was
referring to the trail because he owns that property
and has a deed to that property. Mr. Sides’ testimony
included repeated references to “his” property and
that he would need a court order to allow Plaintiff to
get on “his” property. He has posted a “No Trespassing”
sign at the entrance to the right of way across his
property and has built a barbed wire fence across the
right of way. There is no doubt as to the need for an
injunction in Plaintiff’s favor.
6. Plaintiff is entitled to an Order of Restitution
as against Mr. Sides and Ms. Sides. They are the only
people who have claimed to control that portion of
the right-of-way and are the only people who have
made efforts themselves or requested others to assist
them in blocking access to Plaintiff to the disputed
portion of the right-of-way.
7. The Defendants have standing to oppose Plaintiff’s requested relief. They are adjacent landowners
and, as such, have rights under the KRTA and they
are the only defendants named by Plaintiff. Standing, however, does not always translate into success
on the merits and the Defendants have presented no
evidence to support findings in their favor.
8. While Plaintiff has not acted perfectly in the
past in its actions and inactions with regard to its
easement, its conduct does not rise to the level of
“inequitable” such that the Court should deny requested
relief. The Plaintiff could have been more proactive

App.83a
in the past and could still now be more diligent in
meeting its obligations under KRTA; however, nothing
in the evidence supports a conclusion that Plaintiff
has acted inequitably. It does not have a course of
conduct in McPherson County that is out of compliance
with Kansas statutes or federal law.
9. Public policy as set out by federal law is served
by allowing the trail to be developed as provided
under federal law. Public policy also set out by the
National Trails Act previously cited herein is to
preserve railroad rights-of-way in the event they need
to be reactivated. Granting Plaintiff’s request for
injunctions and an order of restitution supports those
public policies. Public policy also is supported by allowing law, not feelings or wishes or beliefs, to control the
outcome of disputes.
10. Plaintiff has established a present need to
completely exclude the Sides from the disputed property
as there is no “middle ground” to be had in the parties’
positions. They each claim the entirety of the rightof-way but only Plaintiff is legally vested with the
right to use and control the right-of-way. Because
Defendants cannot articulate a use they request to
make of the right-of-way that is not inconsistent with
Plaintiff’s use, they have no right of use. As counsel
for Defendants noted in closing arguments, it is not
up to this Court to fashion a resolution as it would in
a child custody case.
11. The public is not harmed by allowing Plaintiff
to develop the trail allowed for and provided for under
federal law. Federal law defined the public policy
interests as noted above and the injunction granted is
in furtherance of those public policy interests. Trail
development is also a furtherance of the public policy

App.84a
of productive use of land. A trail is clearly a different
use than farm pasture but there is no public policy
that one use is preferred or more “productive” than
the other.
12. Defendants did not file a Motion to Reconsider
or otherwise formally ask the Court to reconsider its
prior ruling regarding the two years to develop” rule
under KRTA; however, in final arguments and in
their proposed Conclusions of Law, Defendants claim
that the court erred in its ruling that K.S.A. 5S-3213
does not apply to this trail. The Court is not reconsidering its prior ruling because a plain reading of
the statute shows that in subsection (d), the Kansas
Legislature stated:
The provisions of this section shall apply
only to recreational trails for which approval
to enter into negotiations for interim trail
use is received from the appropriate federal
agency on or after the date of this act.
(emphasis added).
The Court rejects Defendants’ argument that the
section applies because Plaintiff is now the responsible party rather than the original responsible party
who negotiated the Interim Trail Use Agreement.
The application of that section of the KRTA is to the
trail, not to the responsible party for the trail and
the words “responsible party” are not even included
in the language of that subsection.
IT IS THEREFORE ORDERED, ADJUDGED AND
DECREED AS FOLLOWS:
Defendants are hereby permanently enjoined from
erecting, installing, placing or maintaining any barrier
to Plaintiff and its volunteers, board members and/or

App.85a
contractors beginning work to develop that portion
of the Meadowlark Trail that transverses Defendants’ property. Defendants shall not request or permit
any third parties to act on their behalf to prevent
enforcement of this injunction against Defendants.
Defendants are ordered to remove any and all equipment, machinery, trailer frames or any other personal
property they have placed on the right-of-way and to
do so within ten (10) days of the date of this ruling.
Defendants are also ordered to cooperate with Plaintiff to remove the barbed wire fence at the south end
of the right-of-way to allow Plaintiff to install a cattle
gate to prevent Defendants’ cattle from getting onto
the road.
As a condition of this injunction, Plaintiff is
ordered to secure the entrance to the right-of-way at
the south end with a cattle gate to prevent any
grazing cattle from getting out onto the road or otherwise escaping through the entrance to the right of
way. Such gate shall be secured with a lock and only
Plaintiff should have a key to the lock. The gate shall
be placed within thirty (30) days of the date of this
ruling.
As a further condition of this injunction, Plaintiff
is ordered to contact Defendants within thirty (30)
days of the date of this ruling to discuss an appropriate barbed wire fence along both sides of the right-ofway to keep cattle from escaping from Defendants’
property. If Defendants require a survey to determine the placement of the fence, that survey shall be
paid for by Defendants. Defendants shall further be
required to pay their one-half of the cost of fencing
prior to the beginning of the construction of the fence
and the fence builder or appropriate volunteer fence

App.86a
builders shall be allowed reasonable access to Defendants’ property as necessary to install the appropriate
fence. If Defendants so request, they shall be allowed
one crossing with appropriate gates. Construction of
the fence shall commence within thirty (30) days of
any survey required by Defendants. Plaintiff is not
required to hire a professional fence builder unless it
so chooses.
No Journal Entry shall be required and this
ruling shall be final upon filing with the Court Clerk.
/s/ Marilyn M. Wilder
District Judge

App.87a
DECISION OF THE DISTRICT COURT OF
MCPHERSON COUNTY KANSAS
(JULY 10, 2017)
IN THE DISTRICT COURT OF
MCPHERSON COUNTY, KANSAS
________________________
CENTRAL KANSAS CONSERVANCY, INC.
v.
CLINTON L. SIDES, ET AL.
________________________
No. 15-CV-67
Before: Marilyn M. WILDER, District Court Judge
I.

Background Summary:

Both parties filed Motions for Summary Judgment in June of 2016. Those Motions were scheduled
for argument on August 22, 2016 and the Court
issued its ruling on September 19, 2016. The Court
denied Defendants’ Motion for Summary Judgment
and granted the Plaintiffs Motion by finding, inter
alia: that Plaintiff does have an easement in the Subject Property and did not lose the right to develop a
trail under the Kansas Recreational Trails Act; the
easement was not terminated by adverse possession
nor did Defendants obtain a prescriptive easement
themselves nor was the action brought by Plaintiff
barred by the statute of limitations. Plaintiff then
filed a Supplemental Motion for Summary Judgment
and Motion to Revise Journal Entry on March 31,

App.88a
2017. The Plaintiff also filed a Motion to Withdraw
Claim for Money Damages Without Prejudice on March
24, 2017. Hearing on Plaintiff’s Motions was held on
May 8, 2017.
II.

Ruling on Plaintiff’s Motion to Withdraw Claim
for Money Damages

Defendants object to Plaintiffs Motion to Withdraw Claim for Money Damages. In both their written
objection and their arguments at hearing, Defendants argued that dismissal of that claim would complicate the filing of an appeal. Defendants cited Bain
v. Artzer, 271 Kan. 578, 25 P. 2d 136 (2001). The
Court does not agree with Defendants that the Bain
opinion supports their position in this matter. In that
case, the plaintiff moved for an order of voluntary
dismissal without prejudice after she had presented
all of her evidence at trial. The court granted the
motion with conditions. The Kansas Supreme Court
found that the defendant was then precluded from
appealing the order of dismissal because the order
was not a final order and there was no longer a case.
In the case at bar, the case will remain pending as
Plaintiff seeks leave to withdraw one claim, not its
entire case. Under K.S.A. 60-215(a)(2), the court is to
“freely give leave [to amend] when justice so requires.”
Withdrawing a claim is not at all equal to dismissing
an entire case and no trial has been conducted. The
facts of Bain are not at all similar to the facts in the
case at bar and the Bain does not prevent the Court
from granting Plaintiff’s Motion to withdraw the
claim for money damages.
Defendants also stated concern that they had
expended time and expense in defending the claims

App.89a
of plaintiff and do not want to have to respond again
to claims alleged but then dismissed. While Defendants’ concern has merit, Defendants seem to ignore
that Plaintiff would have to have leave of Court to
amend its pleadings again to request that the claim
be reinstated. The Plaintiff will have to give the Court
sufficient reason to believe that justice requires that
amendment after Plaintiff has previously requested
that the claim be withdrawn. The Court grants the
Plaintiff’s request to withdraw its claim for money
damages from Defendants.
III. Ruling on Motion to Revise Journal Entry
Turning next to the Motion to Revise Journal
Entry, there was no objection to that request and the
Plaintiff is correct in its interpretation of the Court’s
ruling and the Court so clarified at the motion
hearing in May, 2017. While the text of the Court’s
decision does in fact state in Conclusions of Law,
Paragraph 2 that “the KRTA (Kansas Recreational
Trails Act) does not apply to this trail or, subsequently, to this case” the Court’s language was inartful.
The Court intended to state and find that a particular
provision of the KRTA, specifically, K.S.A. 58-3213,
did not apply to this case. The Journal Entry should
be amended to reflect that clarification.
IV. Ruling on Plaintiff’s Supplemental Motion for
Summary Judgment
Finally, turning then to the Plaintiff’s Supplemental Motion for Summary Judgment, Plaintiff requested
the Court to quiet title, to eject the Defendants from
the property “subject only to potential statutory
transversal rights of possessors of land adjoining the

App.90a
Corridor.” The Court specifically found in ruling on
the prior Motions for Summary Judgment that neither
party had elucidated the rights of the landowners as
against the rights of the holder of the easement and
the Court made no ruling in that regard. Plaintiff
now requests that the Court determine the parties’
respective rights to use the Subject Property.
Based upon the Court’s prior findings in its Decision on Parties’ Motions for Summary Judgment, the
Court finds as follows:
1.

Plaintiff possesses an easement in the Meadowlark Trail Corridor that allows Plaintiff
the exclusive right to develop and maintain
the Corridor as a recreational trail, along
with the right to take all reasonably related
actions, subject to statutory traversal rights
and other rights of use of the possessors of
the land adjoining the Corridor that are not
inconsistent with Plaintiff’s rights of use.
Title to the Corridor should be quieted in
favor of Plaintiff.

2.

The Court cannot grant summary judgment
to plaintiff on the issue of the Defendants’
rights to use the subject property pending
its development. The Court agrees with
Plaintiff’s assertion that “railbanking preserves the relationship between the easement
and the servient estate,” citing Moody v.
Allegheny Valley Land Trust, 976 A.2d 484,
491 (Pa. 2009); however, Kansas law is that
the owner of the servient estate is allowed
any use “not inconsistent with the rights of
the railroad” and that it is a question of
fact, not law, whether the necessities of the

App.91a
railroad demand exclusive occupancy for its
purposes and what use of the property by
the owner is a detriment to or interference
with the rights of the road. See, Kansas C.R.
v. Allen, 22 Kan. 285 (1879) and Kansas C.
& E.R. Co v. Kregelo, 32 Kan 608 (1884). See
also Atchison, T. & S.F.R. Co. v Spaulding,
69 Kan. 431 (1904). The parties do not seem
to disagree that Plaintiff now stands in the
shoes of the railroad. While the Court has
facts about the Defendants’ current and past
uses of the right-of-way, the Court has no
facts about the Plaintiff’s plans or current
needs other than that the Plaintiff intends
at some point in the future to develop the
trail. It is not known, for example, when the
Plaintiff would realistically begin work to
develop the trail or what work is anticipated.
If the Plaintiff is not going to begin work on
the trail soon, there would seem to be no
reason why the Defendants couldn’t continue
as least some use of the property until work
is to begin. By way of example, Defendants
would not seem to create a barrier to Plaintiff’s by use by continuing to store machinery
on the Subject Property until the time that
Plaintiff is ready to begin work on the Subject Property to develop the trail. The Court
cannot find as a matter of law that the
Defendants have no right to use the corridor
at this time. For the same reasons, the Court
cannot eject Defendants from the corridor
at this time; however, based upon the
Court’s prior rulings and to clarify those
rulings, the Defendants do not have the

App.92a
right to exclude Plaintiff from the property
by making it inaccessible due to fencing or
by posting “No Trespassing” signs or in any
other way interfering with Plaintiffs use of
the property as it begins to develop the trail.
No further Journal Entry shall be required on
these issues.
BE IT SO ORDERED.
/s/ Marilyn M. Wilder
District Judge

App.93a

JOURNAL ENTRY CONCERNING PARTIES’
MOTIONS FOR SUMMARY JUDGMENT,
DISTRICT COURT OF
MCPHERSON COUNTY, KANSAS
(OCTOBER 12, 2016)
IN THE DISTRICT COURT OF
MCPHERSON COUNTY, KANSAS
________________________
CENTRAL KANSAS CONSERVANCY, INC.,

Plaintiff,
v.
CLINTON L. SIDES, ET AL.,

Defendants.

________________________
Case No. 15-CV-67

Before: Hon. Marilyn M. WILDER,
District Court Judge.
Under the orders of this Court, the parties timely
filed cross-motions for summary judgment. On August
22, 2016, the parties, through their legal counsel,
argued their motions to the Court. Hon. Marilyn M.
Wilder, District Court Judge, presided. Plaintiff was
represented by Casey R. Law, of Wise & Reber, L.C.,
McPherson, Kansas, and by Michael T. Mills, of Michael
T. Mills, Ctd., McPherson, Kansas. Defendants were

App.94a
represented by Patrick B. Hughes, Adams Jones Law
Firm, P.A., Wichita, Kansas.
Having reviewed the parties’ motions and heard
their oral arguments, the Court FINDS, CONCLUDES,
AND ORDERS, ADJUDGES, AND DECREES as
follows:
Finding of Fact:
1. Defendants Clinton Sides and Kimbra Sides
own the following described real estate, which the
Court will refer to as the Subject Property throughout
this decision:
Southeast Quarter (SE 1/4) of Section Twentynine (29), Township Eighteen (18) South,
Range Three (3) West of the Sixth Principal
Meridian, subject to the Railroad right-ofway and to the rights and interests of plaintiff; AND
South Half of the Northeast Quarter (S 1/2
NE 1/4) of Section Twenty-nine (29), Township
Eighteen (18) South, Range Three (3) West
of the Sixth Principal Meridian, subject to
the Railroad right-of-way and to the rights
and interests of plaintiff;
EXCEPTING the two tracts that have the following boundaries:
a.

Beginning at the Northeast corner of said SE
1/4 NE 1/4; thence South along the East line
of said Section 29 on an assumed bearing of
South 0 degrees 13 minutes 35 seconds West
a distance of a 629.20 feet; thence South 89
degrees 21 minutes 51 seconds West a

App.95a
distance of 1327.09 feet to a point on the West
line of the SE 1/4 NE 1/4; thence North 0
degrees 00 minutes 00 seconds East a
distance of 629.17 feet to the Northwest
corner of the SE 1/4 NE 1/4; thence North
89 degrees minutes 51 seconds East a distance of 1329.57 feet back to the point of
beginning;
b.

Commencing at the Southeast corner of said
NE 1/4; thence North 00 degrees 00 minutes
00 seconds East (assumed) along the East line
of said NE 1/4 for 470.13 feet; thence South
84 degrees 07 minutes 55 seconds West for
438.64 feet to the point of beginning; thence
South 00 degrees 00 minutes 00 seconds West
152.01 feet; thence South 90 degrees 00
minutes 00 seconds West for 407.52 feet
thence North 00 degrees 00 minutes 00
seconds East for 320.68 feet; thence North
90 degrees 00 minutes 00 seconds East for
407.52 feet; thence South 00 degrees 00
minutes 00 seconds West for 168.67 feet to
the point of beginning, McPherson County,
Kansas.

2. The Union Pacific Railroad acquired a railroad
right of way over the Subject Property in the late
1800s. The parties do not agree as to whether the
right of way was acquired by condemnation or purchase
but have not made the manner of acquisition an
issue in their motion for summary judgment.
3. On June 5, 1995, Union Pacific sought an
exemption from the Interstate Commerce Commission to abandon 12.6 miles of rail line between milepost
518.0 and 530.6 near Lindsborg, all in McPherson

App.96a
County. A portion of that rail line traverses the Subject
Property. Union Pacific certified at that time that no
local traffic had moved for the line for at least two
years. (The Interstate Commerce Commission’s functions has been transferred to the successor body, the
Surface Transportation Board [STB].)
4. The railroad right-of-way/trail corridor is 66
feet in width and runs generally north and south.
5. On August 18, 1995, the City of Lindsborg,
Kansas requested that a Notice of Interim Trail Use
(NITU) be issued for the subject rail line under the
National Trails System Act, 16 U.S.C. § 1247(d).
6. On September 20, 1995, the Interstate Commerce Commission issued a Decision and Notice of
Interim Trail Use or Abandonment allowing for negotiation of an interim trail use/rail banking agreement.
7. On March 25, 1997, the STB issued a Decision that recited various extensions of the trail use
condition and the various parties that participated
in obtaining those extensions, ultimately ending with
the Plaintiff, Central Kansas Conservancy, Inc., and
granted Plaintiff’s request to extend the interim trail
use negotiation period to April 20, 1997, thereby
allowing Plaintiff to continue to negotiate a trail
use/rail banking agreement with UP.
8. On April 16, 1997, Plaintiff reached an agreement with Union Pacific for use of rights-of-way,
including the right-of-way over the Subject Property,
for trail purposes. This agreement was embodied in a
Line Donation Contract meeting the conditions of 16
U.S.C. § 1247(d). The Line Donation Contract provided
in part “In the event reactivation of rail service upon
the Property is necessary, Donee agrees to transfer

App.97a
the Property back to UP by executing a quit claim
deed in recordable form.”
9. On April 16, 1997, Union Pacific Railroad Company provided Plaintiff with a Donative Quit Claim
Deed to, inter alia, the right-of-way over the Subject
Property, subject to the April 16, 1997 Line Donation
Contract and the terms and conditions of the ICC
Decision and Notice of Interim Trail Use in Docket
AB-33. On May 30, 1997, Union Pacific Railroad provided Plaintiff with a Correction Donative Quit Claim
Deed to, inter alia, the right-of-way over the Subject
Property, subject to the April 16, 1997 Line Donation
Contract and the terms and conditions of the ICC
Decision and Notice of Interim Trail Use in Docket
AB-33.
10. The Defendants obtained a portion of the
Subject Property by warranty deed dated December
17, 1994 and leased the grass portion adjoining the
then unused railroad right-of-way running through
that quarter section. At that time there was no current
railroad-related activity evident on the right of way.
(No written lease was provided to the Court so the
Court makes no determination regarding the validity
or terms of that lease.)
11. Defendants acquired additional property adjoining on both sides the right-of-way by warranty
deed dated December 17, 1997, and on August 24,
2000 acquired additional property also subject to the
right-of-way.
12. By warranty deed dated July 2, 2001, Defendants acquired the remainder of the property in the
southeast quarter of Section 29, Township 18 South,

App.98a
Range 3 West of the Sixth P.M. that they had not
acquired in the previous transactions.
13. Since the mid-1990s, access to the Subject
Property from Pawnee Road on the south, and from
the north, has been fenced off by Defendants. In addition, Defendants erected “no trespassing” signs on
the fence blocking access to the Subject Property and
have parked farm equipment on the Subject Property
to further block access from Pawnee Road.
14. The Kansas Recreational Trails Act (KRTA),
K.S.A. 58-3211 et seq. was passed into law by the
Kansas legislature and was effective as of July 1, 1996.
Conclusions of Law
1. Summary Judgment should be granted “if the
pleadings, the discovery and disclosure materials on
file, and any affidavits or declarations show that
there is no genuine issue as to any material fact and
that the movant is entitled to judgment as a matter
of law.” K.S.A. 60-256(c)(2).
2. At oral argument and in their written motion,
Defendants argued that the KRTA applied to this
case and that under the terms of the KRTA, Plaintiffs had only two years to “develop” the trail. Further,
Defendants argued that because the trail was not
“developed” within the two year time period, Plaintiffs are foreclosed from developing the trail. K.S.A.
58-3213(d) provides that:
The provisions of this section shall apply to
only recreational trails for which approval
to enter into negotiations for interim trail
use is received from the appropriate federal

App.99a
agency or on after the effective date of this
act. (Emphasis added.)
In the case at bar, approval to enter into negotiations for interim trail use was received on September
20, 1995 in the Interstate Commerce Commission’s
Decision and Notice of Interim Trail Use or Abandonment, Docket AB-33. Therefore, the KRTA does not
apply to this trail or, subsequently, to this case. Although the parties changed while negotiations with
UP were taking place and negotiations were not
completed until after the passage of the KRTA, the
KRTA does not make an exception to its applicability
if the parties change during the course of the negotiation, nor is completion of negotiations the trigger date
for its applicability to a recreational trail. “Words
used in statutes are to be given their ordinary meaning.” Farmers Co-op v. Kansas Bd. of Tax Appeals,
236 Kan. 632 (1985). Because the Court concludes
that KRTA does not apply to this case, there is no
need to discuss whether the KRTA is preempted by
federal law.
3. Because the KRTA does not apply, the purported deadline of two years to develop the trail
under the KRTA also does not apply in this case.
Federal law provides no time limit on how quickly a
trail must be developed to its intended level of use.
Surface Transportation Board Decision Docket AB-55
(Sub-No. 514X), CSX Transportation Inc.—Abandonment Exemption in Monroe and Owen Counties, IN.,
Decided: September 1997 (citing Missouri Pacific Railroad Company–Abandonment in Okmulgee, Okfuskee,
Hughes, Pontotoc, Coal, Johnston, Atoka, and Bryan
Counties, OK, Docket No. AB-3 (Sub-No. 63) (ICC
served January 4, 1991).

App.100a
4. Defendants further argue that there are, in fact,
two easements pertaining to the Subject Property: a
railroad easement and a trail easement. This argument
is founded in decisions of the United States Court of
Appeals for the Federal Circuit including Preseault
v. United States, 100 F.3d 1525 (1996) and Toews v.
United States, 376 F.3d 1371 (2004). The Court agrees
with that principle as outlined in those decisions;
however, the Court notes that those cases are both
“takings” cases and do not address the issues raised
by the Defendants in this case. The Preseault and
Toews cases support that the Defendants may have
had or may still have a claim for compensation against
the United States for the taking that occurred when
the easement use shifted from a railroad easement to
a trail easement. “The references in the ICC’s and
the City of Clovis’s various documents to railbanking
and the possibility that one day railroad easements
might be used for a light rail system do not change
the analysis.” Toews, at 1381. In the case at bar,
then, the fact that the ICC granted to the UP the right
to railbank the easement that crosses the Defendants’
property in the event that the UP needed the railroad
easement again, does not change that a taking of the
property then owned by Sides may have occurred;
however, those same federal cases make clear that
the taking was not done by the Plaintiff but rather,
the federal government. Thus, any claim the Sides
may have regarding a taking is against the United
States, not against the Plaintiff. Prior to the rulings
in the U.S. Court of Appeals for the Federal Circuit
in Preseault and Toews, the United States Supreme
Court ruled that the Rails-to-Trails Act was constitutional and reasonably adapted to valid congressional
objectives but remanded to determine whether the

App.101a
Preseaults had a remedy under the Tucker Act for a
Fifth Amendment “taking.” Preseault v. ICC, 494 U.S.
1 (1990). When the U.S. Court of Appeals for the Federal Circuit reviewed the matter following the Supreme
Court’s ruling and determined that, in fact, the
Preseaults did have a claim, the Court also clearly
stated the following:
We do not hold that every exercise of authority
by the Government under the Rails-to-Trails
Act necessarily will result in a compensable
taking. . . . And even if an easement rather
than fee title is the nature of the property
interest held by the railroad at the time of the
conversion to a public trail, if the terms of
the easement when first granted are broad
enough under then-existing state law to
encompass trail use, the servient estate holder
would not be in a position to complain about
the use of the easement for a permitted purpose.
Whether, at a time a railroad applies to abandon its use of an easement limited to railroad
purposes, a taking occurs under an ICC order
to “railbank” the easement for possible future
railroad use, and allowing in the interim for
use of the easement for trail purposes, is a
question not now before us. Preseault, 100
F.3d at 1552.
5. The Defendants next argue that the trail easement owned by Plaintiffs was terminated through
adverse possession or, alternatively, that they obtained
a prescriptive easement on the trail easement. To find
in favor of Defendants on this point, the Court must
find that the easement is not public land. Kansas law

App.102a
is clear that “rights cannot be acquired in public
lands by adverse possession or any statute of limitation,” Riverside Drainage Dist. v. Hunt, 33 Kan.
App.2d 225, citing Gauger v. State, 249 Kan. 86 (1991).
Defendants cite no law to support their position that
the conversion of the easement from a railroad
easement to a trail easement changed the status of
the land as public and/or appropriated for public use
and thereby removed the easement from the purview
of K.S.A. 60-509 which provides that “[n]othing contained in any statutes of limitations shall be applicable
to any real property given, granted, sequestered or
appropriated to any public use. . . . ”
The United States Supreme Court, in its decision
in Preseault, stated that:
Congress apparently believed that every
line is a potentially valuable national asset
that merits preservation even if no future
rail use for it is currently foreseeable. Given
the long tradition of congressional regulation
of railroad abandonments, (citation omitted),
that is a judgment that Congress is entitled
to make.” Preseault, 494 U.S. at 19.
The Court finds, on the basis of the two Preseault
decisions, that the land remained in a public use
and/or appropriated for a public use when the easement
converted from a railroad easement to a trail easement.
The Court also cannot grant summary judgment to
Defendants on their claim that they have gained
exclusive occupancy rights through adverse possession
because, as stated above, the Court finds that the
land remains “appropriated to a public use” and,
therefore, Defendants cannot obtain possession through
adverse possession, and no statute of limitation applies.

App.103a
6. For the reasons set out above, the Court cannot
grant summary judgment to Defendants on the claim
that this action is barred by the statute of limitations, because the Court finds that the land is appropriated for public use and, therefore, K.S.A. 60-509
controls.
7. Finally, the Defendants’ right to use the easement on the Subject Property is not properly before
the Court. The Defendants argue that they have the
right to use the property subject to its reactivation as
a rail corridor. The Court agrees with that blanket
statement standing alone; however, Defendants argue
that the railroad easement essentially no longer exists
and that, in its place, a trail easement exists. Neither
party has elucidated the rights of landowners in
respect to a trail easement and the Court makes no
findings on that issue and that issue remains pending
before the Court.
The Defendants’ Motion for Summary Judgment
is denied for the reasons set out above. By virtue of
the findings of fact and conclusions of law as set out
in this ruling, Plaintiff’s Motion for Summary Judgment is granted as the Court finds that the KRTA
does not apply to this case and, under generally
applicable legal principles, rails-to-trails easements,
which are held for public purposes, are immune from
statutes of limitation or adverse possession. The
Court makes no ruling on whether Defendants are
entitled to compensation from the United States as
that issue is not properly before the Court.
IT IS SO ORDERED, ADJUDGED, AND DECREED.

App.104a
SUBMITTED AND APPROVED:
WISE & REBER, L.C.
By

/s/ Casey R. Law
Casey R. Law #11410
claw@bwisecounsel.com
Attorneys for Plaintiff

By

/s/ Michael T. Mills
Michael T. Mills #5933
lawmills@midusa.net
Attorneys for Plaintiff

ADAMS JONES LAW FIRM, P.A.
By

/s/ Patrick B. Hughes
Patrick B. Hughes #16648
phughes@adamsjones.com
Attorneys for Defendants

App.105a

DECISION ON PARTIES' MOTIONS FOR
SUMMARY JUDGMENT, DISTRICT COURT OF
MCPHERSON COUNTY, KANSAS
(SEPTEMBER 19, 2016)
IN THE DISTRICT COURT OF
MCPHERSON COUNTY, KANSAS
________________________
CENTRAL KANSAS CONSERVANCY, INC.,

Plaintiff,
v.
CLINTON L. SIDES, ET AL.,

Defendants.

________________________
No. 15-CV-67

Before: Marilyn M. WILDER, District Judge
DECISION ON PARTIES’ MOTIONS
FOR SUMMARY JUDGMENT
Findings of Fact:
1. Defendants Clinton Sides and Kimbra Sides
own the following described real estate, which the
Court will refer to as the Subject Property throughout
this decision:
Southeast Quarter (SE 1/4) of Section Twentynine, Township Eighteen (18) South, Range
Three (3) West of the Sixth Principal Merid-

App.106a
ian, subject to the Railroad right-of-way and
to the rights and interests of plaintiff; AND
South Half of the Northeast Quarter (S1/2
NE 1/4) of Section Twenty-nine (29), Township
Eighteen (18) South, Range Three (3) West
of the Sixth Principal Meridian, subject to
the Railroad right-of-way and to the rights
and interests of plaintiff;
EXCEPTING the two tracts that have the following boundaries:
a.

Beginning at the Northeast corner of said
SE 1/4 NE 1/4; thence South along the East
line of said Section 29 on an assumed bearing
of South 0 degrees 13 minutes 35 seconds
West a distance of a 629.20 feet; thence South
89 degrees 21 minutes 51 seconds West a
distance of 1327.09 feet to a point on the
West line of the SE 1/4 NE 1/4; thence North
0 degrees 00 minutes 00 seconds East a
distance of 629.17 feet to the Northwest
corner of the SE 1/4 NE 1/4; thence North 89
degrees minutes 51 seconds East a distance
of 1329.57 feet back to the point of beginning;

b.

Commencing at the Southeast corner of said
NE 1/4; thence North 00 degrees 00 minutes
00 seconds East (assumed) along the East line
of said NE 1/4 for 470.13 feet; thence South
84 degrees 07 minutes 55 seconds West for
438.64 feet to the point of beginning; thence
South 00 degrees 00 minutes 00 seconds
West 152.01 feet; thence South 90 degrees
00 minutes 00 seconds West for 407.52 feet
thence North 00 degrees 00 minutes 00

App.107a
seconds East for 320.68 feet; thence North 90
degrees 00 minutes 00 seconds East for
407.52 feet; thence South 00 degrees 00
minutes 00 seconds West for 168.67 feet to
the point of beginning, McPherson County,
Kansas.
2. The Union Pacific Railroad acquired a railroad
right of way over the Subject Property in the late
1800s. The parties do not agree as to whether the right
of way was acquired by condemnation or purchase but
have not made the manner of acquisition an issue in
their Motions for Summary Judgment.
3. On June 5, 1995, Union Pacific sought an
exemption from the Surface Transportation Board
(STB) to abandon 12.6 miles of rail line between milepost 518.0 and 530.6 near Lindsborg, all in McPherson
County. A portion of that rail line traverses the Subject
Property. Union Pacific certified at that time that no
local traffic had moved for the line for at least two
years.
4. The railroad right-of-way/trail corridor is 66
feet in width and runs generally north and south.
5. On August 18, 1995, the City of Lindsborg
requested that a Notice of Interim Trail Use (NITU)
be issued for the line under the National Trails System
Act, 16 U.S.C. § 1247(d).
6. On September 20, 1995, the Interstate Commerce Commission issued a Decision and Notice of
Interim Trail Use or Abandonment allowing for negotiation of an interim trail use/rail banking agreement.
7. On March 25, 1997, the STB issued a Decision
that recited various extensions of the trail use condition

App.108a
and the various parties that participated in obtaining
those extensions, ultimately ending with the Plaintiff, Central Kansas Conservancy, Inc., and granted
Plaintiffs request to extend the interim trail use
negotiation period to April 20, 1997, thereby allowing
Plaintiff to continue to negotiate a trail use/rail
banking agreement with UP.
8. Plaintiff reached an agreement with Union
Pacific for use of rights-of-way including the right-ofway over the Subject Property for trail purposes on
April 16, 1997 by virtue of a Line Donation Contract
meeting the conditions of 16 U.S.C. § 1247(d). The Line
Donation Contract provided in part “In the event reactivation of rail service upon the Property is necessary,
Donee agrees to transfer the Property back to UP by
executing a quit claim deed in recordable form.”
9. On April 16, 1997, Union Pacific Railroad Company provided Plaintiff with a Donative Quit Claim
Deed to, inter alia, the right-of-way over the Subject
Property, subject to the April 16, 1997 Line Donation
Contract and the terms and conditions of the ICC
Decision and Notice of Interim Trail Use in Docket
AB-33. On May 30, 1997, Union Pacific Railroad provided Plaintiff with a Correction Donative Quit Claim
Deed to, inter alia, the right-of-way over the Subject
Property, subject to the April 16, 1997 Line Donation
Contract and the terms and conditions of the ICC
Decision and Notice of Interim Trail Use in Docket
AB-33.
10. The Defendants obtained a portion of the Subject Property by warranty deed dated December 17,
1994 and leased the grass portion adjoining the then
unused railroad right-of-way running through that
quarter section. At that time there was no current

App.109a
railroad-related activity evident on the right of way.
(No written lease was provided to the court so the
Court makes no determination regarding the validity
or terms of that lease.)
11. Defendants acquired additional property
adjoining on both sides the right-of-way by warranty
deed dated December 17, 1997 and on August 24,
2000 acquired additional property also subject to the
right-of-way.
12. By warranty deed dated July 2, 2001, defendants acquired the remainder of the property in the
southeast quarter of Section 29, Township 18 South,
Range 3 West of the Sixth P.M. that they had not
acquired in the previous transactions.
13. Since the mid-1990s, access to the Subject
Property from Pawnee Road on the south and from
the north has been fenced off by defendants. In addition, defendants erected no trespassing signs on the
fence blocking access to the Subject Property and
have parked farm equipment on the Subject Property
to further block access from Pawnee Road.
14. The Kansas Recreational Trails Act (KRTA),
K.S.A. 58-3211 et seq. was passed into law by the
Kansas legislature and was effective as of July 1, 1996.
Conclusions of Law:
1. Summary Judgment should be granted “if the
pleadings, the discovery and disclosure materials on
file, and any affidavits or declarations show that
there is no genuine issue as to any material fact and
that the movant is entitled to judgment as a matter
of law.” K.S.A. 60-256(c)(2).

App.110a
2. At oral argument and in their written motion,
Defendants argued that the KRTA applied to this
case and that under the terms of the KRTA, Plaintiffs had only two years to “develop” the trail. Further,
defendants argued that because the trail was not
“developed” within the two year time period, Plaintiffs are foreclosed from developing the trail. K.S.A.
58-3213(d) provides that:
The provisions of this section shall apply to
only recreational trails for which approval
to enter into negotiations for interim trail
use is received from the appropriate federal
agency or on after the effective date of this
act. (Emphasis added.)
In the case at bar, approval to enter into negotiations for interim trail use was received on September 20, 1995 in the Interstate Commerce Commission’s
Decision and Notice of Interim Trail Use or Abandonment, Docket AB-33. Therefore, the KRTA does not
apply to this trail or, subsequently, to this case. Although the parties changed while negotiations with UP
were taking place and negotiations were not completed
until after the passage of the KRTA, the KRTA does
not make an exception to its applicability if the parties
change during the course of the negotiation nor is
completion of negotiations the trigger date for its
applicability to a. recreational trail. “Words used in
statutes are to be given their ordinary meaning.”
Farmers Coop v. Kansas Bd. of Tax Appeals, 236 Kan.
632 (1985). Because the Court concludes that the
KRTA does not apply to this case, there is no need to
discuss whether the KRTA is preempted by federal
law.

App.111a
3. Because the KRTA does not apply, the purported deadline of two years to develop the trail under
the KRTA also does not apply in this case. Federal
law provides no time limit on how quickly a trail
must be developed to its intended level of use.
Surface Transportation Board Decision Docket AB-55
(Sub-No. 514X), CSX Transportation Inc.—Abandonment Exemption in Monroe and Owen Counties, IN.,
Decided: September 1997 (citing Missouri Pacific
Railroad Company-Abandonment in Okmulgee, Okfuskee, Hughes, Pontotoc, Coal, Johnston, Atoka, and
Bryan Counties, OK, Docket No. AB-3 (Sub-No. 63)
(ICC served Jan. 4, 1991).
4. Defendants further argue that there are, in
fact, two easements pertaining to the Subject Property: a railroad easement and a trail easement. This
argument is founded in decisions of the United States
Court of Appeals for the Federal Circuit including
Preseault v. United States, 100 F.3d 1525 (1996) and
Toews v. United States, 376 F.3d 1371 (2004). The
Court agrees with that principle as outlined in those
decisions; however, the Court notes that those cases
are both “takings” cases and do not address the
issues raised by the defendants in this case. The
Preseault and Toews cases support that the defendants may have had or may still have a claim for compensation against the United States for the taking
that occurred when the easement use shifted from a
railroad easement to a trail easement. “The references
in the ICC’s and the City of Clovis’s various documents to railbanking and the possibility that one day
railroad easements might be used for a light rail
system do not change the analysis.” Toews, at 1381.
In the case at bar, then, the fact that the ICC granted

App.112a
to the UP the right to railbank the easement that
crosses the Defendants’ property in the event that
the UP needed the railroad easement again, does not
change that a taking of the property then owned by
Sides may have occurred; however, those same federal cases make clear that the taking was not done by
the Plaintiff but rather, the federal government.
Thus, any claim the Sides may have regarding a
taking is against the United States, not against the
Plaintiff. Prior to the rulings in the U.S. Court of
Appeals for the Federal Circuit in Preseault and
Toews, the United States Supreme Court ruled that
the Rails-to-Trails Act was constitutional and reasonably adapted to valid congressional objectives but
remanded to determine whether the Preseaults had
a remedy under the Tucker Act for a Fifth Amendment
“taking.” Preseault v. ICC, 494 U.S. 1 (1990). When the
U.S. Court of Appeals for the Federal Circuit reviewed
the matter following the Supreme Court’s ruling and
determined that, in fact, the Preseaults did have a
claim, the Court also clearly stated the following:
We do not hold that every exercise of authority by the Government under the Rails-toTrails Act necessarily will result in a compensable taking . . . And even if an easement
rather than fee title is the nature of the
property interest held by the railroad at the
time of the conversion to a public trail, if the
terms of the easement when first granted
are broad enough under then-existing state
law to encompass trail use, the servient estate
holder would not be in a position to complaint
about the use of the easement for a permitted
purpose.

App.113a
Whether, at the time a railroad applies to
abandon its use of an easement limited to
railroad purposes, a taking occurs under an
ICC order to “railbank” the easement for
possible future railroad use, and allowing in
the interim for use of the easement for trail
purposes, is a question not now before us.
Preseault, at 1552.
5. The Defendants next argue that the trail
easement owned by Plaintiffs was terminated through
adverse possession or, alternatively, that they obtained
a prescriptive easement on the trail easement. To
find in favor of Defendants on this point, the Court
must find that the easement is not public land. Kansas
law is clear that “rights cannot be acquired in public
lands by adverse possession or any statute of limitation.” Riverside Drainage Dist. v. Hunt, 33 Kan. App.
2d 225, citing Gauger v. State, 249 Kan. 86 (1991).
Defendants cite no law to support their position that the
conversion of the easement from a railroad easement
to a trail easement changed the status of the land as
public and/or appropriated for public use and thereby
removed the easement from the purview of K.S.A.
60-509 which provides that [n]othing contained in
any statutes of limitations shall be applicable to any
real property given, granted, sequestered or appropriated to any public use . . . ”
The United States Supreme Court, in its decision in Preseault, stated that:
Congress apparently believed that every line
is a potentially valuable national asset that
merits preservation even if no future rail use
for it is currently foreseeable. Given the long
tradition of congressional regulation of rail-

App.114a
road abandonments, (citation omitted), that
is a judgment that Congress is entitled to
make.” Preseault, at 19.
The Court finds, on the basis of the two Preseault
decisions, that the land remained in a public use and/
or appropriated for a public use when the easement
converted from a railroad easement to a trail easement.
The Court also cannot grant summary judgment to
Defendants on their claim that they have gained
exclusive occupancy rights through adverse possession
because, as stated above, the Court finds that the land
remains “appropriated to a public use” and, therefore,
Defendants cannot obtain possession through adverse
possession and no statute of limitation applies.
6. For the reasons set out above, the Court cannot
grant summary judgment to defendants on the claim
that this action is barred by the statute of limitations
because the Court finds that the land is appropriated
for public use and, therefore, K.S.A. 60509 controls.
7. Finally, the Defendants’ right to use the easement on the Subject Property is not properly before
the Court. The Defendants argue that they have the
right to use the property subject to its reactivation as
a rail corridor. The Court agrees with that blanket
statement standing alone; however, Defendants argue
that the railroad easement essentially no longer exists
and that, in its place, a trail easement exists. Neither
party has elucidated the rights of landowners in respect
to a trail easement and the Court makes no findings
on that issue and that issue remains pending before
the Court.
The Defendants’ Motion for Summary Judgment
is denied for the reasons set out above. By virtue of

App.115a
the findings of fact and conclusions of law as set out
in this ruling, Plaintiff’s Motion for Summary Judgment is granted as the Court finds that the KRTA does
not apply to this case and, under generally applicable
legal principles, rails-to-trails easements, which are
held for public purposes, are immune from statutes
of limitation or adverse possession. The Court makes
no ruling on whether Defendants are entitled to compensation from the United States as that issue is not
properly before the Court.
BE IT SO ORDERED.
/s/ Marilyn M. Wilder
District Judge

App.116a
DECISION OF THE
SURFACE TRANSPORTATION BOARD
(MARCH 28, 1997)
SURFACE TRANSPORTATION BOARD1
________________________
21705 DO
Docket No. AB-33 (Sub-No. 89X)
UNION PACIFIC RAILROAD COMPANY—
ABANDONMENT—EXEMPTION—IN
MCPHERSON COUNTY, KS (McPherson Branch)
Decided: March 25, 1997
By decision and notice of interim trail use or abandonment (NITU) served on September 28, 1995, a 180day trail use/rail banking condition was imposed under
the National Trails System Act, 16 U.S.C. § 1247(d)
(Trails Act), as requested by the city of Lindsborg, KS
1 The ICC Termination Act of 1995, Pub. L. No. 104-88, 109 Stat.
803 (ICCTA), which was enacted on December 29, 1995, and took
effect on January 1, 1996, abolished the Interstate Commerce
Commission (ICC) and transferred certain functions and proceedings to the Surface Transportation Board (Board). Section
204(b)(1) of the ICCTA provides, in general, that proceedings
pending before the ICC on the effective date of that legislation
shall be decided under the law in effect prior to January 1,
1996, insofar as they involve functions retained by the ICCTA.
This decision relates to a proceeding that was pending with the
ICC prior to January 1, 1996, and to functions that are subject
to Board jurisdiction pursuant to 49 U.S.C. § 10903. Therefore,
this decision applies the law in effect prior to the ICCTA, and
citations are to the former sections of the statute, unless otherwise
indicated.

App.117a
(Lindsborg), in connection with the proposed abandonment by Union Pacific Railroad Company (UP) of 12.6
miles of rail line, between milepost 518.0 near McPherson and milepost 530.6 near Lindsborg, in McPherson
County, KS.2 At Lindsborg’s request, the trail use
condition was extended to September 22, 1996, in a
decision served March 26, 1996, and at the request of
Kansas Horse Council (Kansas Horse), Friends of the
Trail (Friends), and Rails to Trails Conservancy (RTC)
(collectively, petitioners), the trail use condition was
further extended to March 21, 1997, in a decision
served January 31, 1997.3
On March 11, 1997, Central Kansas Conservancy,
Inc. (CKC), formerly Friends, filed a letter stating that
it changed its name to, and incorporated itself as, CKC,
a non-profit corporation. Accompanying the letter was
a statement from CKC agreeing to assume financial
responsibility for interim trail use/rail banking in
compliance with 49 CFR 1152.29 and acknowledging
that use of the right-of-way as a trail is subject to future
reactivation for rail service.4 In a separate motion, also
filed on March 11, 1997, CKC requests that the NITU
2 The notice of exemption, under 49 CFR 1152 Subpart F—Exempt
Abandonments, was served and published in the Federal Register
on June 22, 1995 (60 FR 32710) and was to become effective on
July 23, 1995.
3 Petitioners requested the trail use extension because Lindsborg
was no longer involved, and a statement of willingness to assume
financial responsibility was subsequently filed by Serenata Farms
School of Equestrian Arts, an affiliate of Kansas Horse.
4 Asserting that it filed a statement of willingness as Friends,
CKC states that a new statement is being filed because the January
31 decision observed that the Board had no record of the alleged
filing.

App.118a
negotiating period be extended by 30 days to April
20, 1997. CKC indicates that all material issues
relating to trail use/rail banking have been resolved
and states that it expects to enter into a contract
with UP as soon as the respective boards of directors
give their final approval. According to CKC, the
requested extension is necessary because scheduling
difficulties could delay the approval of the agreement
beyond March 21, 1997, the expiration date of the
NITU negotiating period. CKC states that the extension is supported by Kansas Horse and RTC. Additionally, it attached a letter from UP, dated March
11, 1997, agreeing both to negotiate trail use/rail
banking with CKC and to the extension request.
Because UP has continually agreed to negotiate
trail use/rail banking and has not consummated the
proposed abandonment, the Board retains jurisdiction over the line and may extend the NITU. CKC has
demonstrated that it should be permitted to negotiate
with UP, and UP has consented to negotiate with
CKC, as the new trail use negotiating party, and has
agreed to the requested extension. Accordingly, CKC
will be authorized to negotiate a trail use/rail banking
agreement with UP, and its request for an extension
will be granted. It has shown that the requested extension is necessary and will promote the establishment of trails and rail banking consistent with the
Trails Act.
This action will not significantly affect either the
quality of the human environment or the conservation of energy resources.
It is ordered:

App.119a
1. The request to extend the interim trail use
negotiation period is granted; the negotiation period
is extended to April 20, 1997.
2. The NITU served September 28, 1995, and
extended by decisions served March 26, 1996, and
January 31, 1997, is modified to reflect that CKC is
authorized to negotiate a trail use/rail banking agreement with UP.
3. This decision is effective on the date of service.
By the Board, David M. Konschnik, Director,
Office of Proceedings.
Vernon A. Williams
Secretary

